<html>
<title> - QUESTIONABLE FISH SCIENCE AND ENVIRONMENTAL LAWSUITS: JOBS AND WATER SUPPLIES AT RISK IN THE INLAND EMPIRE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
 QUESTIONABLE FISH SCIENCE AND ENVIRONMENTAL LAWSUITS: JOBS AND WATER 
                 SUPPLIES AT RISK IN THE INLAND EMPIRE

=======================================================================

                        OVERSIGHT FIELD HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

           Tuesday, October 18, 2011, in Highland, California

                               __________

                           Serial No. 112-73

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
          Committee address: http://naturalresources.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
70-765                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fe998e91be9d8b8d8a969b928ed09d9193d0">[email&#160;protected]</a>  


                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
             EDWARD J. MARKEY, MA, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Scott R. Tipton, CO                  Betty Sutton, OH
Paul A. Gosar, AZ                    Niki Tsongas, MA
Raul R. Labrador, ID                 Pedro R. Pierluisi, PR
Kristi L. Noem, SD                   John Garamendi, CA
Steve Southerland II, FL             Colleen W. Hanabusa, HI
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Charles J. ``Chuck'' Fleischmann, 
    TN
Jon Runyan, NJ
Bill Johnson, OH

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
                Jeffrey Duncan, Democrat Staff Director
                 David Watkins, Democrat Chief Counsel
                                 ------                                

                    SUBCOMMITTEE ON WATER AND POWER

                      TOM McCLINTOCK, CA, Chairman
            GRACE F. NAPOLITANO, CA, Ranking Democrat Member

Louie Gohmert, TX                    Raul M. Grijalva, AZ
Jeff Denham, CA                      Jim Costa, CA
Scott R. Tipton, CO                  Ben Ray Lujan, NM
Paul A. Gosar, AZ                    John Garamendi, CA
Raul R. Labrador, ID                 Edward J. Markey, MA, ex officio
Kristi L. Noem, SD
Doc Hastings, WA, ex officio



                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, October 18, 2011........................     1

Statement of Members:
    Calvert, Hon. Ken, a Representative in Congress from the 
      State of California........................................     6
        Prepared statement of....................................     7
    Lewis, Hon. Jerry, a Representative in Congress from the 
      State of California........................................     4
        Prepared statement of....................................     5
    McClintock, Hon. Tom, a Representative in Congress from the 
      State of California........................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Aguilar, Hon. Peter, Mayor, City of Redlands, California.....     9
        Prepared statement of....................................    10
    Aldstadt, Stacey, General Manager, City of San Bernardino 
      Water Department, San Bernardino, California...............    33
        Prepared statement of....................................    35
    Anderson, Ileene, Biologist, Center for Biological Diversity, 
      Los Angeles, California....................................    15
        Prepared statement of....................................    17
    Lohoefener, Ren, Regional Director, Pacific Southwest Region, 
      U.S. Fish and Wildlife Service, U.S. Department of the 
      Interior, Sacramento, California...........................    18
        Prepared statement of....................................    20
        Response to questions submitted for the record...........    21
    Rossi, John, General Manager, Western Municipal Water 
      District, Riverside, California............................    29
        Prepared statement of....................................    31
        Response to questions submitted for the record...........    33
    Stockton, Robert, Chairman, Economic Development Council, 
      Greater Riverside Chambers of Commerce, Riverside, 
      California.................................................    12
        Prepared statement of....................................    14
    Wehr, Colonel Michael C., Commander, South Pacific Division, 
      U.S. Army Corps of Engineers, San Francisco, California....    27
        Prepared statement of....................................    28
                                     



  OVERSIGHT HEARING ON ``QUESTIONABLE FISH SCIENCE AND ENVIRONMENTAL 
   LAWSUITS: JOBS AND WATER SUPPLIES AT RISK IN THE INLAND EMPIRE.''

                              ----------                              


                       Tuesday, October 18, 2011

                     U.S. House of Representatives

                    Subcommittee on Water and Power

                     Committee on Natural Resources

                          Highland, California

                              ----------                              

    The Subcommittee met, pursuant to call, at 9:51 a.m., at 
the Highland City Hall, 27215 Base Line, Highland, California, 
Hon. Tom McClintock [Chairman of the Subcommittee] presiding.
    Present: Representative McClintock.
    Also Present: Representatives Lewis and Calvert.

   STATEMENT OF THE HON. TOM McCLINTOCK, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McClintock. The Subcommittee on Water and Power will 
come to order. The Subcommittee meets today to hear testimony 
on a hearing entitled ``Questionable Fish Science and 
Environmental Lawsuits: Jobs and Water Supplies at Risk in the 
Inland Empire.''
    I ask unanimous consent that the gentlemen from California, 
Mr. Lewis and Mr. Calvert, be allowed to sit with the 
Subcommittee and participate in the hearing.
    Hearing no objection, so ordered.
    To begin today's hearing, I would like to defer to my 
distinguished colleague, Congressman Jerry Lewis, for a few 
introductions.
    Congressman Lewis?
    Mr. Lewis. Thank you, Mr. Chairman.
    Today, it is my pleasure to introduce Joe Martinez and his 
band of ROTC representing the California Baptist University 
ROTC class. The color guard is here to present the colors and 
lead us in the Pledge of Allegiance.
    Gentlemen?
    [Reciting of the Pledge of Allegiance.]
    Mr. Lewis. Thank you, Mr. Chairman.
    Mr. McClintock. Thank you.
    I want to thank all of you for coming today. I need to 
point out that this is a formal congressional hearing that has 
been called at the request of Congressman Lewis and Congressman 
Calvert. It is not a public forum, so testimony today is by 
invitation only for the majority and minority parties.
    For those of you in the audience today who would like to 
have your comments put into the official record, please fill 
out the forms that are located at the front entrance. Your 
comments are very important to us and will be included in the 
official record of the Committee's hearing. And if you just 
give the form to one of our staff members, we will ensure that 
it is printed with the Committee's report.
    We will begin with 5-minute opening statements, and we will 
start with the Chair.
    In the 112th Congress, this Subcommittee is focused on 
restoring abundance as the principal objective of Federal water 
and power policy. A generation ago, the West was blessed with 
engineering visionaries who recognized that the prosperity and 
quality of life in States like California depended on 
harnessing their enormous resource potential.
    These giants had the foresight to construct the dams, 
hydroelectric facilities, and canal systems that laid the 
foundation for the thriving industry and commerce that made 
this State truly golden. At the same time, these projects 
greatly improved the environment by providing flood control 
that tamed the devastating cycle of floods and droughts that 
regularly ravaged the environment and devastated the region, 
while making possible year-round cold-water fisheries that 
could not exist without the dams.
    Unfortunately, about a generation ago, a radical and 
retrograde ideology seeped into our public policy, which its 
practitioners at the time called the ``era of limits.''
    Really shocking stuff.
    [Laughter.]
    Mr. McClintock. These ideologues abandoned projects in mid-
construction. They erected impossible bureaucratic barriers to 
further development of these resources, and they began the 
process of diverting vast amounts of water and power away from 
human use for such pet causes as the Delta Smelt, and, as we 
will hear today, the Santa Ana Sucker fish.
    Throughout the West, there is a growing litany of 
heartbreaking stories of the human suffering that this has 
caused.
    One example is the diversion of 200 billion gallons of 
contracted water from the Central Valley for the enjoyment of 
the Delta Smelt. This policy has laid waste to a quarter-
million acres of the most fertile farmland in America and 
destroyed thousands of jobs. It is no accident that four of the 
10 metropolitan areas with the highest unemployment in the 
entire country are all located in California's Central Valley.
    Earlier this year, this Subcommittee held a similar field 
hearing in Fresno so that the local community could tell its 
story directly to those responsible. This Subcommittee heard 
tearful testimony of how a region that once prided itself on 
producing a sizable portion of the Nation's fruits and nuts now 
imported food from China to stock its food lines. Today's 
hearing involves a similar situation that threatens to 
permanently damage the economy of this region in the name of a 
6-inch fish called the Santa Ana Sucker.
    Once again, it appears we face a taxpayer-financed 
environmental litigant blissfully unconcerned about the 
economic suffering that it is causing to a region of millions 
of people, while attaining little, if any, advantage for the 
fish.
    They seek to destroy the usefulness of the Seven Oaks Dam 
to provide desperately needed water supplies for the people of 
this region by invoking the Endangered Species Act in a manner 
that the science simply does not support. Even the notorious 
State Water Resources Control Board, which is hardly a bastion 
of water development, recognized the need to appropriate water 
rights from the dam to help provide local water for local use.
    No doubt, the next step, having rendered the Seven Oaks Dam 
functionally useless, will be to advocate its destruction, as 
we are watching in other regions, most notably the Klamath and 
Columbia Rivers.
    They have found willing accomplices in this Administration. 
In so doing, the Federal agencies involved have deliberately 
ignored the economic and scientific arguments and insist on 
designating critical habitat that has never supported the 
Sucker fish before.
    I note that Congressmen Lewis and Calvert, who are here 
today, along with Congressman Joe Baca and others, have asked 
this Administration to withdraw its flawed regulation. I 
applaud them for their efforts, and I thank them for their 
leadership on this issue.
    In the Central Valley, a Federal court has already declared 
that these agencies are acting in a, quote, ``arbitrary and 
capricious manner,'' and using what can only be described as 
junk science to support political objectives that are causing 
vast economic damage and hardship to millions of Americans 
struggling to survive in a difficult economy.
    Meanwhile, this matter is also now in litigation. I want to 
make it clear that when a court rules that a Federal agency has 
acted not because of an honest difference of opinion, but has, 
rather, abused its authority in an arbitrary and capricious 
manner, and has caused enormous damage as a result, this 
Subcommittee must take notice.
    If I have anything to say about it, this Subcommittee will 
act to identify the specific officials responsible up and down 
the chain of authority, hold them accountable for the damage 
they have done, and seek to separate them from the power that 
they have abused
    Now I will recognize Congressman Lewis for an opening 
statement.
    [The prepared statement of Mr. McClintock follows:]

         Statement of The Honorable Tom McClintock, Chairman, 
                    Subcommittee on Water and Power

    In the 112th Congress, this Subcommittee has focused on restoring 
abundance as the principal objective of federal water and power policy. 
A generation ago, the West was blessed with engineering visionaries who 
recognized that the prosperity and quality of life in states like 
California depended on harnessing their enormous resource potential.
    These giants had the foresight to construct the dams, hydroelectric 
facilities and canal systems that laid the foundation for the thriving 
industry and commerce that made this state truly golden. At the same 
time, these projects greatly improved the environment by providing 
flood control that tamed the devastating cycle of floods and droughts 
that regularly ravaged the environment and devastated the region, while 
making possible year-round cold-water fisheries that did not exist 
without the dams.
    Unfortunately, a generation ago, a radical and retrograde ideology 
seeped into our public policy, which its practitioners called the ``era 
of limits.'' These ideologues abandoned projects in mid-construction, 
erected impossible bureaucratic barriers to further development of 
these resources and began the process of diverting vast amounts of 
water and power away from human use for such pet causes as the Delta 
Smelt, and as we will hear today, the Santa Ana Sucker Fish.
    Throughout the West, there is a growing litany of heart-breaking 
stories of the human suffering this has caused.
    One example is the diversion of 200 billion gallons of contracted 
water from the Central Valley for the enjoyment of the Delta Smelt. 
This policy has laid waste to a quarter-million acres of the most 
fertile farmland in America and destroyed thousands of jobs. It is no 
accident that four of the ten metropolitan areas with the highest 
unemployment in the nation are all in California's Central Valley.
    Earlier this year, the sub-committee held a similar field hearing 
in Fresno so that the local community could tell its story directly to 
those responsible. This sub-committee heard tearful testimony of how a 
region that once prided itself on producing a sizeable portion of the 
nation's fruits and nuts now imported food from China to stock its food 
lines.
    Today's hearing involves a similar situation that threatens to 
permanently damage the economy of this region--in the name of a six-
inch fish called the Santa Ana Sucker. Once again, it appears we face a 
taxpayer-financed environmental litigant blissfully unconcerned about 
the economic suffering it is causing to a region of millions of people, 
while attaining little, if any, advantage to the fish.
    They seek to destroy the usefulness of the Seven Oaks Dam to 
provide desperately needed water supplies for the people of this region 
by invoking the Endangered Species Act in a manner that the science 
simply does not support. Even the notorious State Water Resources 
Control Board, hardly a bastion of water development, recognized the 
need to appropriate water rights from the dam to help provide local 
water for local use.
    No doubt, the next step, having rendered the Seven Oaks Dam 
functionally useless will be to advocate its destruction, as we are 
watching in other regions, most notably on the Klamath and Columbia 
Rivers.
    They have found willing accomplices in this administration. In so 
doing, the federal agencies involved have deliberately ignored the 
economic and scientific arguments and insist on designating critical 
habitat that has never supported the suckerfish before.
    I note that Congressmen Lewis and Calvert, who are here today, 
along with Congressman Joe Baca and others, have asked this 
Administration to withdraw its flawed regulation. I applaud them for 
their efforts and I thank them for their leadership on this issue.
    In the Central Valley, a federal court has already declared that 
these agencies are acting in an arbitrary and capricious manner, and 
using what can only be described as ``junk science'' to support 
political objectives that are causing vast economic damage and hardship 
to millions of Americans struggling to survive in a difficult economy.
    Meanwhile, this matter is also now in litigation. I want to make it 
clear that when a court rules that an agency has acted not because of 
an honest difference of opinion, but has abused its authority in an 
arbitrary and capricious manner, and has caused enormous damage as a 
result, this sub-committee must take notice.
    If I have anything to say about it, this sub-committee will act to 
identify the specific officials responsible--up and down the chain of 
authority--hold them accountable for the damage they have done and seek 
to separate them from the power that they have abused.
                                 ______
                                 

STATEMENT OF THE HON. JERRY LEWIS, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Lewis. Thank you very much, Mr. Chairman.
    I would take you back, Mr. Chairman, to a few years ago 
when we experienced one of the major floods in recent history 
in the Valley. I was a relatively young boy at the time, 
standing at my back window, and I dropped a ping-pong ball out 
that window. It fell 3-1/2 feet, hit the water, and floated out 
through the back fence.
    The potential of flooding in this Valley cannot be 
overestimated. Three million people could be flooded from their 
homes. More than 100,000 acres could be inundated. As many as 
3,000 people could very well lose their lives by way of 
drowning.
    The Corps of Engineers use these figures when they outlined 
for us that this floodplain is perhaps the most dangerous 
floodplain west of the Mississippi. Indeed, its potential for 
economic impact in the region cannot be overestimated.
    When the dams that have now been completed to the east were 
first thought through, it was a design to try to protect from 
floods this entire Valley, and, if allowed to operate 
effectively, will have a huge beneficial impact to the entire 
economy.
    Last year, the Fish and Wildlife Service, after a lawsuit 
from CBD, expanded the critical habitat designation for the 
Santa Ana Sucker.
    When the original design took place for these dams, by the 
way, the Sucker fish was not on the Endangered Species list. So 
after the fact, we are dealing with a potential endangered 
species that could radically change the value of this huge and 
important design.
    Altogether, the dams have cost somewhere in the 
neighborhood of $1 billion to construct. If they are allowed to 
go forward effectively, it will be worth every penny in terms 
of life and property and economic potential.
    If the action by the Fish and Wildlife Service continues, 
we will not have the water to grow in this region. As of today, 
the unemployment in San Bernardino and Riverside Counties are 
at 13.6 and 14.7 percentage points. This just cannot continue, 
but it will, if we don't give our businesses a chance to 
succeed.
    So, Mr. Chairman, your hearing here today is very much 
appreciated. It is an opportunity for local officials to 
address this issue and help us better understand especially the 
economic impacts of these water control activities.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Lewis follows:]

       Statement of The Honorable Jerry Lewis, a Representative 
                in Congress from the State of California

    Three million people could be flooded out of their homes. More than 
100,000 acres would be under water. As many as 3,000 people might be 
threatened with drowning. The economy would be hit with a $15 billion 
loss. These are the figures the Army Corps of Engineers used when they 
called the Santa Ana River the worst flood threat west of the 
Mississippi--mind you those numbers are from 1987. Since then, Congress 
and the Corps have worked together to construct Seven Oaks and Prado 
Dam at a cost of over a billion dollars. I've seen the predictive 
models for a major flood event without the dams and I can tell you it 
was worth every penny.
    When these dams were constructed a great deal of environmental 
review was done. At the time, the Santa Ana Sucker was not a listed 
species. When it was listed in 2000 the agencies worked together to 
designate habitat, but it wasn't enough for the Center for Biological 
Diversity who made it their mission to have this splendid project 
destroyed to `protect' a fish.
    Last year the US Fish and Wildlife Service, after a lawsuit from 
CBD, expanded the critical habitat designation for the Santa Ana 
Sucker. As part of this process, the Service was required, by law, to 
do a study on economic impact--a study in which they admit they didn't 
really do the job. An independent economic analysis by Dr. John Husing, 
who is in the room today, estimates that this designation will cost the 
region $2.7 billion in lost water and jobs. The Service's report 
guessed it would only be $6 to $8 million.
    If this action by the Fish and Wildlife Service continues, we will 
not have the water to grow. As of today the unemployment in San 
Bernardino and Riverside Counties stands at 13.6 and 14.7 percent. This 
can't continue, but it will if we don't give our businesses a chance to 
succeed. To build something you have to prove adequate supply of 
water--a requirement this part of the country already struggles to 
meet. How can I tell my constituents in this room, and around my 
district, that we won't create jobs because we don't have the water?
    I'm convinced, that instead of spending another half trillion 
dollars of taxpayer money on a questionable stimulus plan, Congress 
needs to help private industry create more jobs by reducing the burden 
of over-regulation.
    In the House of Representatives, we've been searching for ways to 
get the government out of the way of private job creation. Just before 
we left Washington, the House passed legislation to stop the 
Environmental Protection Agency from creating new rules that threaten 
many industries--and could affect the very survival of the cement 
industry in San Bernardino County and across the nation.
    I believe it's time to look just as closely at the Fish and 
Wildlife Service which is threatening thousands of jobs in this 
community because of over-regulation on behalf of the Santa Ana Sucker 
fish.
                                 ______
                                 
    Mr. McClintock. Thank you.
    And now I would like to recognize the distinguished former 
Chairman of the Water and Power Subcommittee, Congressman Ken 
Calvert, for 5 minutes.

STATEMENT OF THE HON. KEN CALVERT, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Calvert. Thank you, Mr. Chairman.
    I want to start by thanking you for convening today's 
hearing. I look forward to hearing from those who have come to 
testify about the U.S. Fish and Wildlife Service's revised 
critical habitat designation for the Santa Ana Sucker. 
Specifically, I am concerned that the proposed designation may 
have devastating and long-reaching economic ramifications.
    Jerry Lewis, Joe Baca, and I all represent this area along 
the Santa Ana River, and we are all joined together, Republican 
and Democrat, concerned about the economic future of this 
region, and so we are here today.
    Just 3 years ago, the Nation watched as California farms, 
as the Chairman mentioned, and the tens of thousands of jobs 
they support, dried up in the Central Valley when the Fish and 
Wildlife Service cut off Valley farmers from their water 
supplies to protect the Delta Smelt.
    Today, the Inland Empire is facing record unemployment--
14.1 percent average between Riverside and San Bernardino 
Counties.
    Congress and community leaders are working to revive our 
economy and put Americans back to work, and so we have all 
become more finely tuned and sensitive to impacts on the 
environment and jobs when new critical habitat designations are 
finalized.
    In the instance of the Santa Ana Sucker, the revised 
critical habitat designation affects an enormous urban 
population and its water supply. I am concerned that the 
revised critical habitat designation for the Sucker could 
become the Inland Empire's Delta Smelt and cripple our region's 
economic engine.
    It has been projected that by 2035 the Inland Empire's 
population will increase by over 2 million people. To prepare 
for this population growth, local water agencies are 
undertaking major efforts to expand regional water supplies and 
replenish our depleted groundwater. According to some 
estimates, the Service's critical habitat designation could 
mean the loss of almost 126,000 acre-feet of local water every 
single year. If this water could be replaced with imported 
water, it would cost the region an additional $2.87 billion per 
year, a cost that will ultimately be passed on to working 
families and job creators in the form of ever-increasing water 
rates.
    However, given current limitations on pumping from the 
Delta, the sad reality is this lost water may very well be 
irreplaceable. And all of Southern California's future growth 
must be supported by increased local water supply.
    Further, I am concerned with the Service's decision to 
designate new critical habitat within the boundaries of the 
Western Riverside Multi-Species Habitat Conservation Plan, 
referred to as the HCP. When the Fish and Wildlife Service 
approved Western Riverside County's HCP, the Service agreed not 
to designate any new critical habitat.
    In return, the county committed to creating a half million 
acres of habitat that hosts nearly 150 species residing in 
Western Riverside County. Many people in this room worked on 
that and spent a lot of dedication to get this plan completed, 
one of the first major HCPs in the United States
    By previously agreeing to implement an HCP, Western 
Riverside County was able to establish a plan for conservation 
balanced with a long-term plan for urban growth and 
infrastructure development. The plan has been designed to 
preserve native vegetation and meet the habitat needs of 
multiple species, rather than focusing preservation efforts on 
one species at a time.
    Unfortunately, the Service's decision to designate nearly 
3,000 acres of new land within the HCP breaks its agreement 
with Riverside County, threatens the continued successful 
implementation of the HCP, and increases development and 
conservation costs. Without a strong landscape-level plan like 
the HCP to promote development and conservation side-by-side, 
Riverside's ability to build new infrastructure and promote 
business investment in the Inland Empire is stunted.
    I look forward to working with Western Riverside's HCP, 
local stakeholders, and certainly the U.S. Fish and Wildlife 
Service to reach a resolution for this issue.
    Mr. Chairman, without a reliable water supply, our cities 
cannot grow. Without roads and infrastructure to get our goods 
to market, our economy cannot grow, and we cannot create jobs.
    Mankind has understood these basic concepts for thousands 
of years. However, today we are gathered to discuss a decision 
by the Fish and Wildlife Service that would disrupt both the 
economic prosperity and water supply of one of the largest 
urban populations in the United States. The Service's decision 
to expand the critical habitat into areas the Service 
previously deemed ``not essential'' when it first moved to 
protect the Santa Ana Sucker in the 2005 report requires close 
examination.
    I agree that as Americans we must manage our native species 
so they thrive for future generations; however, I do not 
believe that managing America's natural resources and promoting 
America's continued economic prosperity are mutually exclusive.
    With that, thank you, Mr. Chairman.
    [The prepared statement of Mr. Calvert follows:]

       Statement of The Honorable Ken Calvert, a Representative 
                in Congress from the State of California

    Mr. Chairman, I want to start by thanking you for convening today's 
hearing. I'm looking forward to hearing from those that have come to 
testify about the U.S. Fish and Wildlife Service's revised critical 
habitat designation for the Santa Ana Sucker. Specifically, I am 
concerned that the proposed designation may have devastating and long-
reaching economic ramifications.
    Just three years ago, the nation watched as California farms, and 
the tens of thousands of jobs they support, dried up in the Central 
Valley when the Fish and Wildlife Service cut off Valley farmers from 
their water supplies to protect the Delta Smelt. Today, Congress and 
community leaders are working to revive our economy and put Americans 
back to work and so we have all become more finely tuned and sensitive 
to impacts on the environment and jobs when new critical habitat 
designations are finalized. In the instance of the Santa Ana Sucker, 
the revised critical habitat designation effects an enormous urban 
population and its water supply. I am concerned that the revised 
critical habitat designation for the Santa Ana Sucker could become the 
Inland Empire's ``Delta Smelt''--and cripple our region's economic 
engine.
    It has been projected that by 2035 the Inland Empire's population 
will increase by over 2 million people. To prepare for this population 
growth, local water agencies are undertaking major efforts to expand 
regional water supplies and replenish our depleted groundwater. 
According to some estimates, the Service's critical habitat designation 
could mean the loss of almost 126,000 acre feet of local water every 
year. If this water could be replaced with imported water, it would 
cost the region an additional $2.87 billion dollars a year--a cost that 
will ultimately be passed on to working families and job creators in 
the form of ever-increasing water rates. However, given current 
limitations on pumping from California's Delta the sad reality is this 
lost water may very well be irreplaceable.
    Further, I am concerned with the Service's decision to designate 
new critical habitat within the boundaries of the Western Riverside 
Multi-Species Habitat Conservation Plan (HCP). When the Fish and 
Wildlife Service approved Western Riverside County's HCP, the Service 
agreed not to designate any new critical habitat. In return, the County 
committed to creating a half million acres set aside for the 
preservation of habitat that hosts nearly 150 species residing in 
Western Riverside County.
    By previously agreeing to implement the HCP, Western Riverside 
County was able to establish a plan for conservation balanced with a 
long term plan for urban growth and infrastructure development. The 
plan had been designed to preserve native vegetation and meet the 
habitat needs of multiple species, rather than focusing preservation 
efforts on one species at a time.
    Unfortunately, the Service's decision to designate nearly 3,000 
acres of new land within the HCP breaks its agreement with Riverside 
County, threatens the continued successful implementation of the HCP 
and increases development and conservation costs. Without a strong 
landscape-level plan like the HCP to promote development and 
conservation side-by-side, Riverside's ability to build new 
infrastructure and promote business investment in the Inland Empire is 
stunted. I look forward to working with Western Riverside's HCP, local 
stake holders and the U.S. Fish and Wildlife Service to reach 
resolution for this issue.
    Mr. Chairman, without a reliable supply of water, our cities cannot 
grow. Without roads and infrastructure to get our goods to market, our 
economy cannot grow and we cannot create jobs. Mankind has understood 
these basic concepts for thousands of years. However, today we are 
gathered to discuss a decision by the Fish and Wildlife Service that 
would disrupt both the economic prosperity and water supply of one of 
the largest urban populations in the United States. Their decision to 
expand the critical habitat into areas the Service previously deemed 
``not essential'' when it first moved to protect the Santa Ana Sucker 
in 2005 requires close examination.
    I agree that as Americans we must manage our native species so they 
thrive for future generations; however, I do not believe that managing 
America's natural resources and promoting America's continued economic 
prosperity are mutually exclusive.
                                 ______
                                 
    Mr. McClintock. Thank you, Mr. Calvert.
    We will now hear from our panel of witnesses. Each 
witness's written testimony will appear in full in the hearing 
record, so I would ask that the witnesses keep their oral 
statements to 5 minutes, as outlined in the invitation letter 
and also according to our rules.
    Let me explain how the timer lights work. It is pretty 
simple. When you begin to speak, the clerk will start the 
timer. A green light will go on, meaning you have all the time 
in the world--well, you have 5 minutes, anyway.
    [Laughter.]
    Mr. McClintock. When the yellow light goes on, that means 
you need to speak very, very fast because you have 1 minute 
left. And with a red light goes on, that means we have stopped 
listening, so you might as well stop talking.
    [Laughter.]
    Mr. McClintock. I will now recognize the Hon. Pete Aguilar, 
mayor of the City of Redlands, California, to testify. Dr. John 
Husing, an economist for Economics & Politics, Inc., will 
accompany the Mayor Aguilar on the panel.
    Mr. Mayor?

          STATEMENT OF THE HON. PETE AGUILAR, MAYOR, 
                  CITY OF REDLANDS, CALIFORNIA

    Mr. Aguilar. Chairman McClintock and members of the 
Committee, thank you for this opportunity to testify before you 
today. My name is Pete Aguilar, and I am the Mayor of the City 
of Redlands, California.
    I appear before you as a representative of a city in an 
area where the economy will be severely impacted by the new 
Santa Ana Sucker boundaries drawn by the U.S. Fish and Wildlife 
Service.
    But before I get to that, please let me tell you a little 
bit about the Inland Empire and our local economy. San 
Bernardino County is the largest county in the Nation in terms 
of total land area. San Bernardino County and Riverside County, 
which lies to the south, comprise the Inland Empire, which was 
one of the fastest growing metropolitan areas in California and 
in the United States from 1997 to 2006.
    San Bernardino County has a population of 2.1 million 
people, with just under 608,000 wage and salary jobs. The per 
capita income of San Bernardino County is just over $27,000 and 
the average salary per worker is $46,000.
    But because the area has suffered from large real estate 
and labor market declines, the economic fallout has been severe 
over the last few years. Economic growth in Southern California 
declined sharply in 2008 and 2009, and job losses were the 
largest on record.
    In 2010, 36,500 additional jobs were lost in San Bernardino 
County, representing a 5.7 percent loss of employment. The 
unemployment rate increased, as Congressman Calvert mentioned, 
to 13.9 percent in 2009 and reached 14 percent in 2010. Two 
sectors to record positive job creation were education and 
health services.
    Even though the national recession officially ended in June 
2009, the Inland Empire's economic output continues to shrink.
    There is no question the expansion of the critical habitat 
of the Santa Ana Sucker will bring dire economic consequences 
for our communities, which are already suffering more than 
most.
    As everyone here is aware, in December 2009, the Fish and 
Wildlife Service announced that it would revise the Santa Ana 
Sucker's critical habitat. I believe the Service's decision 
totally disregards the scientific and economic realities of the 
Inland Empire and the Sucker's actual needs.
    As you know, the Endangered Species Act specifically 
mandates that the Service's decisions must consider the 
economic impacts of a community. Unfortunately the Service's 
new Santa Ana Sucker habitat designation does not include these 
required considerations, and, as such, endangers the economic 
well-being of an entire region.
    It goes without saying that providing adequate water supply 
is one of the biggest challenges in Southern California today 
and for the foreseeable future. Water shortages have been 
aggravated by the rulings on the Delta Smelt fish, which has 
caused reductions in water imported to Southern California.
    Restrictions on drawing water from the Delta have a 
widespread effect, and one of the most effective methods of 
compensating for the reduced Delta water supplies is the 
creation of reliable local water. But the expanded critical 
habitat for the Sucker directly opposes water agency efforts in 
the Inland Empire to capture stormwater, recharge our basins, 
and reduce our reliance on imported water.
    California law mandates that local water agencies must 
certify a 20-year supply of water before any major residential, 
retail, or industrial project can be built. If there is no 
water to buy at any costs, then the much-needed development 
cannot move forward.
    The region of San Bernardino and Riverside Counties, with a 
current unemployment rate of over 14 percent, desperately needs 
economic development. The region also needs to be able to house 
its growing population. According to economist John Husing, the 
forecast is that over 472,000 added households will locate in 
this area impacted by the new Sucker designation.
    Jerry Lewis and Ken Calvert have led the effort to include 
language in the Interior appropriations bill to urge the Fish 
and Wildlife Service to cooperate with local agencies on 
Section 7 applications that arise under the Sucker designation.
    Meanwhile, Joe Baca led a bipartisan effort to Secretary 
Salazar, requesting the habitat designation be rescinded. We 
are extremely grateful for this leadership and request that the 
agency act accordingly.
    Thank you very much for your time.
    Economist John Husing and I look forward to answering any 
questions you might have.
    [The prepared statement of Mr. Aguilar follows:]

               Statement of The Honorable Peter Aguilar, 
                  Mayor, City of Redlands, California

    Chairman McClintock and Members of the Committee, thank you for 
this opportunity to testify before you today. My name is Pete Aguilar 
and I am the Mayor of the City of Redlands, California.
    I appear before you as a representative of a City in an area where 
the economy will be severely impacted by the new Santa Ana Sucker 
boundaries drawn by the US Fish and Wildlife Service. But before I get 
to that, please let me tell you a little bit about the Inland Empire 
and its economy.
    San Bernardino County is the largest county in the nation in terms 
of total land area. San Bernardino County and Riverside County, which 
lies to the south, comprise the Inland Empire, which was one of the 
fastest growing metropolitan areas of California and the United States 
from 1997 to 2006. San Bernardino County has a population of 2.1 
million people, with just under 608,000 wage and salary jobs. The per 
capita income in San Bernardino County is $27,387 and the average 
salary per worker is $46,393. But, because the area has suffered from 
large real estate and labor market declines, the economic fallout has 
been severe over the last few years.
    Economic growth in Southern California declined sharply in 2008 and 
2009 and job losses were the largest on record. In 2010, 36,500 total 
jobs were lost in San Bernardino County, representing a 5.7 percent 
loss of employment. The unemployment rate increased to 13.9 percent in 
2009 and reached 14 percent in 2010. Employment in the construction 
sector fell by 8,150 workers, a decline of 24 percent. This contraction 
was due primarily to a decline in new home production (down 90 percent 
from the peak in 2004). Employment declined in both the manufacturing 
and retail trade sectors by just over 7,000 jobs each. The only sector 
to record positive job creation was education and health services. Even 
though the national recession officially ended in June 2009, the Inland 
Empire's economic output shrunk 0.6 percent last year.
    There is no question the expansion of the critical habitat of the 
Santa Ana Sucker will bring dire economic consequences for our 
communities which are already suffering more than most, and have been 
severely impacted by foreclosures.
    The State of Homelessness 2011 showed San Bernardino County had a 
66 percent increase from the 2009 homeless count, with almost 3,000 
people counted as being homeless in 2010 compared to almost 2,000 
counted in 2009. The National Alliance to End Homelessness conducted 
the report and found our dismal economy was a significant reason for 
the increase. Increasing unemployment, decreasing real income for the 
working poor and an increase in households with incomes below the 
federal poverty level were all factors associated with the data, 
according to the report.
    As everyone here today is aware, the Santa Ana Sucker is a small 
fish that lives in the Santa Ana River and has been listed as a 
Threatened Species since 2001 under the Endangered Species Act. A Task 
Force was formed when the fish was first listed and has worked with the 
Fish and Wildlife Service to study the fish and monitor its progress. 
This Task Force has participated with federal and state agencies in a 
Habitat Conservation Plan for many years. In 2005, the Fish and 
Wildlife Service established an area of Critical Habitat for the fish. 
At the time, they intentionally excluded the dry upper Santa Ana River 
areas as critical habitat, finding that the dry areas were not 
essential to the conservation of the species and the enormous costs to 
the Inland Empire's economy far outweighed any benefits to the species.
    But in December 2009, the Service announced that it would revise 
the Critical Habitat without giving any scientific or economic 
rationale for doing so. A legal settlement between the USFWS and the 
Center for Biological Diversity directed the Service to undertake a 
review of the Sucker's habitat, however the settlement did not require 
the 2005 designated Critical Habitat be revised in any way. Moreover, 
the lawsuit settlement did not override existing law.
    I believe the Fish and Wildlife Service's decision totally 
disregards the scientific and economic realities of the Inland Empire. 
As you know, the Endangered Species Act specifically mandates that the 
Service's decisions must consider the economic impacts to a community. 
Unfortunately the Service's new Santa Ana Sucker habitat designation 
does not include these required considerations, and as such, endangers 
the economic well being of an entire region, which is already suffering 
from 14 percent unemployment and other economic ills.
    It goes without saying that providing adequate water supply is one 
of the biggest challenges in Southern California today and for the 
foreseeable future. Southern California has suffered through repeated 
droughts and has experienced huge growth. In fact, 2.1 million more 
people are expected to live in the Inland Empire area between 2008-
2035. In addition, water shortages have been aggravated by the 
situation in California's Delta with the Service's ruling on the Delta 
Smelt fish which have caused reductions in water imported to Southern 
California. Restrictions on drawing water from the Delta have had a 
widespread effect, and one of the most effective methods of 
compensating for reduced Delta water supplies is the creation of 
reliable local water supplies.
    The expanded Critical Habitat for the Santa Ana Sucker directly 
opposes water agency efforts in the Inland Empire to capture 
stormwater, recharge our basins and reduce our reliance on imported 
water. Local water agencies are undertaking projects intended to better 
utilize water recycling, desalination, and flood control projects/
groundwater recharge projects which will expand our supplies of local 
water and recharge our depleted groundwater basins. However, the new 
Sucker Critical Habitat designation will prohibit important projects 
from moving forward.
    Loss of water as a result of the new Sucker habitat designation in 
the normally dry, ephemeral upper reaches of the Santa Ana River would 
mean the loss of up to 125,800 acre feet of water a year to the Inland 
Empire. If there was a source to replace this lost water, which there 
isn't, the 25 year cost would be $2.87 billion. If local taxpayers were 
to put aside money today to buy this water the cost would be $1.87 
billion, using a 3% interest rate. The Service did not use proper 
accounting methods to arrive at their lower number; rather the Service 
used several tricks, such as using an unrealistic 7% interest rate. 
Still, the Service's economists ended up with a $694 million present 
day cost to local taxpayers. Much more than our Inland Empire residents 
can afford to pay! All this for the inclusion of a dry habitat zone 
that in 2005 was deemed by the Service not necessary for the species 
existence.
    What is even more important to understand is that there will not be 
any water to replace the lost 125,800 acre feet of local water, at any 
cost. Even if we could afford to buy it, there is no water to buy. In 
March 2011, with California's snow pack at 165% of normal, the State 
Water Project estimated that it will only be able to supply its 
regional water agencies 70% of their current water allocations. Those 
allocations were 50% in 2010, 40% in 2009, 35% in 2008, and 60% in 
2007. If the Service's intent is for the Inland Empire to substitute 
the loss of our local water supply with State Water Project water, due 
to other Service designations, it will not be available. Because of the 
Service's prior actions, keeping local water supplies intact is more 
important than ever.
    California law mandates that local water agencies must certify a 20 
year supply of water before any major residential, retail, office or 
industrial project can be built. The San Bernardino and Riverside 
region, with a current unemployment rate of over 14%, economic 
development is desperately need. The region also needs to be able to 
house its growing population. According to economist John Husing, the 
forecast is that 472,104 added households will locate in the area 
impacted by the new Sucker designation.
    Several area lawmakers have banded together to try to halt the new 
Sucker designation by placing language in House appropriations 
legislation. I commend these Members in their efforts to prevent 
economic catastrophe in the Inland Empire. I respectfully request your 
Committee work with these Members and the Appropriations Committee to 
ensure that this language stays intact as the Fiscal Year 2012 
appropriations process moves forward to a conclusion.
    On behalf of the struggling Inland Empire communities, I 
respectfully request this Committee play an active role in oversight of 
the US Fish and Wildlife Service and its use of the Endangered Species 
Act and ensure the Service follow the mandates of the Endangered 
Species Act that require the use of impacts to humans and economic 
realities to determine habitat designations.
                                 ______
                                 
    Mr. McClintock. Thank you, Mr. Mayor.
    We now recognize Mr. Bob Stockton, Chairman of the Economic 
Development Council for the Greater Riverside Chambers of 
Commerce from Riverside, California, to testify.

   STATEMENT OF BOB STOCKTON, CHAIRMAN, ECONOMIC DEVELOPMENT 
  COUNCIL, GREATER RIVERSIDE CHAMBERS OF COMMERCE, RIVERSIDE, 
                           CALIFORNIA

    Mr. Stockton. Mr. Chairman, members of the Subcommittee, my 
name is Bob Stockton. I am Vice President and Principal-in-
Charge of Rick Engineering's Riverside office. Thank you for 
inviting me to testify today regarding the economic impacts of 
the critical habitat designation for the Santa Ana Sucker.
    I come to you today not only as a local businessman, but 
also as the Chair of the Greater Riverside Chambers of 
Commerce's Economic Development Council, and as past Chair of 
the Riverside Board of Public Utilities, which is the water 
purveyor for the City.
    In short, because it would likely stall or even kill 
regional infrastructure projects, the Santa Ana Sucker critical 
habitat designation severely threatens to bring an already 
struggling regional economy into a prolonged and deep 
recession.
    This is not unprecedented. Water cutbacks demanded by 
Endangered Species Act protections for the Delta Smelt weigh 
heavily on the Central Valley. Unemployment in parts of the 
Central Valley surpassed 40 percent, and foreclosure rates have 
created virtual ghost towns.
    No one wants to see what is happening in the Central Valley 
replicated anywhere else in our country.
    The Inland Empire, one of the fastest growing regions in 
the country during the last decade and, therefore, somewhat 
dependent on the housing industry, has already been hit hard by 
this economic downturn. The latest unemployment numbers are 
from August 2011, and they show that in Riverside County, 
unemployment is 14.7 percent, and San Bernardino County is only 
slightly better at 13.6 percent.
    But even with the collapse of the homebuilding industry and 
related businesses, our region continues to grow. The Southern 
California Association of Governments predicts that it is going 
to be about 2.6 percent growth rate over the next 5 years and 
that the region will grow from 3 million to about 4 1/2 million 
by 2035.
    It is crucial to note that about 70 percent of this growth 
is organic. This is not a case where building roads and homes 
causes growth. As John Husing has noted, unless someone 
develops a policy for stopping people from having children, 
inland agencies have no choice but to prepare for this growth 
since it is the only area with undeveloped land.
    Infrastructure agencies throughout the region have sounded 
the alarm bells that the Santa Ana Sucker critical habitat 
designation could force them to forgo crucial projects. That 
includes bridge and road infrastructure, development, flood 
control projects, and water projects.
    If these projects fail to move forward, then the region is 
going to take at least a double shot of pain.
    First, we are going to lose the jobs that would have been 
created by those projects. The best estimates are that our 
already-struggling economy would lose about $320 million in 
road and water infrastructure projects.
    Second, if we can't build these projects, our roads will be 
jammed. We can't provide the homes, and perhaps most 
importantly, we will not have a reliable water system.
    Senate Bill 610 is a State law that requires water service 
providers to prepare a water supply assessment for most 
development projects. These assessments must evaluate whether 
water supplies are sufficient to meet a project's water demands 
over a 20-year period. If the water agencies cannot certify to 
meet those demands, the projects can't move forward.
    A reliable water system is the backbone of a healthy 
economy. If these projects cannot get an approved water supply 
assessment, we are not going to be able to expand or even 
retain even our existing businesses, and there is no way we are 
going to be able to recruit new businesses to come into the 
region.
    History is going to repeat itself again. The Inland Empire 
is going to look and feel more and more like the Central 
Valley.
    There is at least one more important issue here. The 
Implementing Agreement for the Western Riverside County Multi-
Species Habitat Conservation Plan, the MSHCP, clearly states 
that lands within the boundaries of the MSHCP should not be 
designated as critical habitat unless the Fish and Wildlife 
Service says the MSHCP is not being implemented. This simply 
isn't true. And the Department of the Interior signed the 
Implementing Agreement.
    Principle here remains an issue, and the principle is 
important because it is critical to maintain public support for 
the plan. If the public believes that the Fish and Wildlife 
Service is pulling the rug out from under their feet, the plan 
can be irrevocably harmed and subject to invalidation. The 
plan's demise would increase project costs and delay placement 
of crucial infrastructure and further compromise our fragile 
economy.
    I am deeply concerned that Fish and Wildlife chose to 
ignore the potential for dire economic consequences of their 
decision to expand this critical habitat designation for the 
Santa Ana Sucker. It is clear to me that the Santa Ana Sucker 
critical habitat designation can cripple our already struggling 
regional economy.
    Thank you for your time. I stand ready to answer any 
questions you may have.
    [The prepared statement of Mr. Stockton follows:]

 Statement of Robert Stockton, Vice President and Principal-in-Charge, 
                Rick Engineering, Riverside, California

    Mr. Chairman, Members of the Subcommittee, my name is Robert 
Stockton. I am Vice President and Principal-in-Charge of Rick 
Engineering in Riverside, California. Thank you for inviting me to 
testify today regarding the economic impacts of the critical habitat 
designation for the Santa Ana Sucker (SAS). I come to you today not 
only as a local businessman, but also as the Chair of the Greater 
Riverside Chamber of Commerce's Economic Development Council, and also 
past Chair of the City of Riverside's Board of Public Utilities, which 
is the water purveyor for the City.
    In short, because it would likely stall or even kill regional 
infrastructure projects, the SAS critical habitat designation severely 
threatens to send an already struggling regional economy into a 
prolonged and deep recession.
    This is not unprecedented. Water cutbacks demanded by Endangered 
Species Act protections for the Delta smelt weigh heavily on the 
Central Valley. Unemployment in parts of that region surpassed 40 
percent and the foreclosure rates in some parts of the Valley have 
created virtual ghost towns.
    No one wants to see what's happened in the Central Valley be 
replicated anywhere in our country.
    The Inland Empire, one of the fastest growing regions in the 
country during the last decade and therefore somewhat dependent on the 
home building industry, has already been hit hard by the recent 
economic downturn. The latest unemployment numbers we have for the 
Inland Empire are from August 2011. Riverside County has 14.7 percent 
unemployment while San Bernardino County fares slightly better at 13.6 
percent.
    But even with the collapse of the homebuilding industry and related 
businesses, the region continues to grow. The California Department of 
Transportation estimates an annual growth rate of 2.6 percent over the 
next five years and most analysts assume the region will grow from 
about 3 million today to almost 4.5 million people in 2035.
    It is crucial to note that about 70% of this growth will be 
organic. This is not a case where building roads and homes causes 
population growth. As John Husing has noted, ``unless someone develops 
a policy for stopping people from having children, inland agencies have 
no choice but to prepare for this growth since it is the only area with 
undeveloped land.''
    Infrastructure agencies throughout the region have sounded the 
alarm bells that the SAS critical habitat designation could force them 
to forgo crucial projects, including bridge and road construction, 
development, flood control structures, and water projects.
    If these projects fail to move forward, the region takes at least a 
double shot of pain. First, we would lose the jobs that would be 
created by the projects. The best estimates are that our already-
weakened economy would lose about $320 million worth of water and 
transportation infrastructure projects.
    Second, if we cannot build these projects, our roads will be 
jammed, there will not be enough homes for the growing population, and 
perhaps most importantly, we will lack a reliable water system.
    SB610 is a state law that requires water service providers to 
prepare ``water supply assessments'' for most development projects. 
These assessments must evaluate whether water supplies are sufficient 
to meet the proposed project's water demands over a 20 year period. If 
the water agencies cannot certify sufficient demand, the project cannot 
move forward.
    A reliable water system is the backbone of a healthy economy. If 
projects cannot get an approved water supply assessment, we will not be 
able to expand or even retain our current businesses, much less attract 
new businesses to the region. History will repeat itself as the Inland 
Empire starts to look more and more like today's Central Valley.
    There is at least one more important issue here.
    The Implementing Agreement for the Western Riverside County Multi-
Species Habitat Conservation Plan (MSHCP) clearly states that lands 
within the boundaries within the MSHCP should not be designated as 
critical habitat unless the Fish and Wildlife Service finds that the 
MSHCP is not being implemented. DOI signed that Implementing Agreement. 
Nonetheless, the US Fish and Wildlife Service overlaid critical habitat 
for the SAS on MSHCP lands. Fish and Wildlife has done the same with a 
number of other species as well, though they have never claimed the 
MSHCP is not being implemented.
    In fact, they can't claim this because it's simply not true. The 
MSHCP has a 25-year implementation period and we are only about six 
years into that period. Even in that short time, the Regional 
Conservation Authority alone has spent $257 million to preserve almost 
27,000 acres for the Plan. Overall, nearly $400 million has been spent 
to preserve about 43,000 acres of land.
    From a practical perspective, this issue has been addressed through 
an updated Biological Opinion for the MSHCP that makes it clear that 
the SAS critical habitat designation has no impact on covered 
activities within the MSHCP.
    But the principle here remains an issue. And the principle is 
important because it's critical to maintain public support for the 
plan. If the public believes that the Fish and Wildlife is pulling the 
rug out from under their feet, the plan could be irreparably harmed, 
and subject to invalidation. The plan's demise would increase project 
costs and delay placement of crucial infrastructure, and further 
compromise our fragile economy.
    I am deeply concerned that Fish and Wildlife chose to ignore the 
potential for dire economic consequences of their decision to expand 
the critical habitat designation for the SAS. It is clear to me that 
the SAS critical habitat designation can cripple our already-struggling 
regional economy.
    Thank you for your time. I stand ready to answer any questions you 
may have.
                                 ______
                                 
    Mr. McClintock. Thank you, Mr. Stockton.
    I would now like to recognize Ms. Ileene Anderson, 
Biologist for the Center for Biological Diversity from Los 
Angeles, California, to testify.

STATEMENT OF ILEENE ANDERSON, BIOLOGIST, CENTER FOR BIOLOGICAL 
               DIVERSITY, LOS ANGELES, CALIFORNIA

    Ms. Anderson. Chairman McClintock and Representatives 
Calvert and Lewis, thanks very much for having me here today. I 
am here to address the science used in the designation of the 
critical habitat for the Santa Ana Sucker, which as you know is 
a small native fish found in the Santa Ana River. It is a 
Federally threatened species under the Federal Endangered 
Species Act and the State's species of concern. Its whole range 
consists of the Santa Ana River and San Bernardino and 
Riverside and Orange Counties, and the San Gabriel River, and 
to Tujunga Wash in Los Angeles County.
    In 2004, the Fish and Wildlife Service proposed a 
scientifically based critical habitat for the fish and included 
the Santa Ana River from just south of Colton down to Prado 
Basin. In 2005, political appointees in the Bush Administration 
pushed through a final designation of critical habitat that 
included zero acres of the Santa Ana River. In my professional 
opinion, there was no biological basis for excluding occupied 
habitat supporting a successfully reproducing population of the 
Santa Ana Sucker, especially in the fish's namesake river.
    So we were interested to see how this came about. And in 
March 2005, we did a Freedom of Information Act request to the 
Fish and Wildlife Service for information associated with 2005 
critical habitat designation. In those documents, we found 
clear and unequivocal evidence of political meddling by the 
Bush Administration appointee Craig Manson, which I submitted 
as an exhibit to this testimony.
    According to the Fish and Wildlife Service staff e-mails, 
Mr. Manson, who is neither a scientist nor has any background 
in habitat requirements of the Santa Ana Sucker, decided to 
remove the proposed critical habitat units in the Santa Ana 
River from the designation.
    So based on that evidence, we challenged the Fish and 
Wildlife Service in 2007 for their critical habitat designation 
and quickly came to a settlement agreement whereby Fish and 
Wildlife Service would revisit the critical habitat designation 
through their typical public process, and finalize that by 
2010, in December.
    So in 2009, the Fish and Wildlife Service re-proposed 
critical habitat and allowed for 60-day public comment. They 
published an economic analysis on July 2nd, 2010. It discussed 
the associated costs with the proposed critical habitat and 
allowed a 30-day public comment.
    I submitted comments on both of those documents. And based 
on my review of the data, I found that the scientific evidence 
was comprehensive in identifying areas along the Santa Ana 
River that were essential to the persistence of the Santa Ana 
Sucker, and also found that the designation included 
incorporation of new data that had been collected since 2005.
    In particular, the inclusion of the upstream areas, which 
are the source of gravels that form the breeding substrate for 
the Santa Ana Sucker, is biologically justified.
    The 2009 proposed critical habitat designation was very 
similar to the proposed critical habitat designation in 2004, 
so this science has been fairly consistent through the 
proposals and the final 2010 designation.
    Our comments on the 2009 proposal--we did point out that 
they failed to include all suitable habitat for the Santa Ana 
Sucker, which is required for the recovery of the species, 
which is the purpose of critical habitat designation, not just 
keeping them on the brink of extinction, but actually 
recovering their numbers, so that eventually they can be 
delisted.
    So in my opinion, the 2010 final designation of the 
critical habitat for the Santa Ana Sucker is scientifically 
defensible. It includes the necessary components for the 
persistence of the fish in the Santa Ana River. And the 
upstream portion of the designation in the Santa Ana River wash 
includes areas that have ephemeral surface flows, and these 
areas provide the essential gravels--wash them downstream--upon 
which the Santa Ana Sucker depends for successful breeding 
downstream.
    And I think with that, I will wrap up my testimony today.
    Thank you. I would be happy to answer any questions.
    [The prepared statement of Ms. Anderson follows:]

    Statement of Ileene Anderson, Biologist, Center for Biological 
                               Diversity

Summary of Testimony
        1.  The 2010 final critical habitat designation for the Santa 
        Ana sucker is scientifically based and utilizes the best 
        available science to identify the habitat requirements that the 
        Santa Ana sucker needs to survive.
        2.  In contrast, a 2005 decision to designate no critical 
        habitat for the fish on its namesake river was not based on any 
        science and was the work of political appointees in the Bush 
        administration.
Background and Qualifications
        3.  I have a Master's of Science in Biology and a Bachelor's of 
        Arts in Biology from the California State University, 
        Northridge.
        4.  I have 20 years of experience studying the ecology of 
        southern California environments, including the Santa Ana 
        River.
        5.  I have directed and participated in numerous field surveys 
        of federal and state-listed threatened and endangered species, 
        as well as other rare species. I have written results in 
        conformance with the California Environmental Quality Act and 
        the National Environmental Policy Act.
        6.  I have written, implemented and monitored a variety of 
        restoration and revegetation plans, primarily implemented as 
        mitigation.
        7.  I have published articles on these subjects in peer-
        reviewed scientific journals and presented papers and posters 
        at scientific meetings.
        8.  I am currently a staff biologist with the Center for 
        Biological Diversity, where I focus on protecting native 
        natural resources primarily in San Bernardino, Riverside, 
        Orange, Los Angeles and Kern counties.
        9.  I have attended meetings of the Santa Ana Sucker Recovery 
        Team since 2005. I have participated in ``river walks'' 
        organized by U.S. Fish and Wildlife Service in conjunction with 
        the Santa Ana Sucker Recovery Team. During the ``river walks,'' 
        I helped characterize the suitability of habitat along the 
        Santa Ana River for the Santa Ana sucker fish.
Use of Science in the Designation of Critical Habitat for the Santa Ana 
        Sucker Fish
        10.  The Santa Ana sucker (Catostoma santaanae) is a small 
        native fish of the Santa Ana River. It is a federally 
        threatened species and a State species of concern throughout 
        its range, which includes the Santa Ana River in San 
        Bernardino, Riverside and Orange Counties and the San Gabriel 
        River and Tujunga Wash in Los Angeles County.
        11.  In 2004, the United State Fish and Wildlife Service 
        proposed a scientifically based Critical Habitat for the fish 
        that included the Santa Ana River from just south of Colton 
        downstream to Prado Basin.
        12.  In 2005, political appointees in the Bush administration 
        pushed through a final designation of critical habitat that 
        included zero acres on the Santa Ana River. In my professional 
        opinion, there was no biological basis for excluding occupied 
        habitat supporting a successfully reproducing population of the 
        Santa Ana sucker especially in the fish's namesake river.
        13.  On March 15, 2005, the Center for Biological Diversity 
        submitted a Freedom of Information Act request to the U.S. Fish 
        and Wildlife Service for all information associated with the 
        2005 critical habitat designation for the Santa Ana sucker 
        fish. In those documents, the Center found clear and 
        unequivocal evidence of political meddling by the Bush 
        administration appointee, Craig Manson. According to U.S. Fish 
        and Wildlife Service staff emails, Mr. Manson, who is not a 
        scientist and has no background in habitat requirements of the 
        Santa Ana sucker fish, decided to remove the proposed critical 
        habitat units in the Santa Ana River from the final critical 
        habitat designation. Exhibit 1.
        14.  Based on the evidence, the Center for Biological Diversity 
        challenged the U.S. Fish and Wildlife Service's 2005 critical 
        habit designation in federal court on November 15, 2007 and 
        quickly came to a settlement agreement whereby the U.S. Fish 
        and Wildlife Service would revisit the critical habitat 
        designation through their typical public process for critical 
        habitat designations by December 2010.
        15.  On December 9, 2009, the U.S. Fish and Wildlife Service 
        re-proposed critical habitat for the Santa Ana sucker and 
        allowed a 60-day public comment period on the draft proposal. 
        On July 2, 2010, the U.S. Fish and Wildlife Service published 
        the availability of the economic analysis of the economic costs 
        associated with the proposed critical habitat designation for 
        the Santa Ana sucker and allowed a 30-day public comment period 
        on the economic analysis.
        16.  I submitted comments on the proposed critical habitat 
        designation on February 6, 2010 on behalf of the Center for 
        Biological Diversity and Inland Empire Waterkeepers. Based on 
        my review of the data, I found the scientific evidence 
        comprehensive in identifying areas along the Santa Ana River 
        that were essential to the persistence of the Santa Ana sucker. 
        In particular, inclusion of upstream areas which are the source 
        of gravels that form the breeding substrate for the Santa Ana 
        sucker was biologically justified.
        17.  The 2009 proposed critical habitat designation in the 
        Santa Ana River was very similar to the areas proposed for 
        critical habitat in 2004, which were subsequently deleted in 
        the 2005 final designation by Mr. Manson.
        18.  Our comments noted that the 2009 proposal failed to 
        include all suitable habitat for the Santa Ana sucker fish.
        19.  The 2010 final designation of critical habitat for the 
        Santa Ana sucker is scientifically defensible. It includes the 
        necessary components for the persistence of the fish in the 
        Santa Ana River. While the upstream portion of the designation 
        includes areas that have ephemeral surface flows, these areas 
        provide the essential gravels upon which the Santa Ana sucker 
        depends for successful breeding downstream.
        20.  Between 2004 and 2009, more information on the Santa Ana 
        sucker and its habitat has become available. Unfortunately, 
        this data shows the Santa Ana Sucker has declined from 2001 to 
        2008. Data about these declines as well as new information 
        about the habitat needs of the species were incorporated into 
        the 2010 designation of critical habitat for the Santa Ana 
        sucker.
        21.  The Center for Biological receives less than half of one 
        percent of its total annual income from attorney fees recovered 
        through the Equal Access to Justice Act.
        22.  The majority of cases where legal costs are reimbursed 
        under the Equal Access to Justice Act are filed by individual 
        veterans and social security recipients--not environmental 
        groups.
Conclusions
    In summary:
        <bullet>  In 2004, the Santa Ana river was properly included in 
        the proposed critical habitat designation based on the best 
        available science and because it harbored successfully 
        reproducing Santa Ana sucker.
        <bullet>  In 2005, political interference ignored the 
        scientific evidence and improperly excised the Santa Ana River 
        from the final critical habitat designation, as documented by 
        U.S. Fish and Wildlife Service's emails.
        <bullet>  The 2010, the final critical habitat was designated 
        based on all of the best available science including the most 
        recent data collected between 2005 and 2009.
                                 ______
                                 
    Mr. McClintock. Thank you very much.
    I now recognize Mr. Ren Lohoefener, Regional Director of 
the U.S. Fish and Wildlife Service from Sacramento, California, 
to testify.

 STATEMENT OF REN LOHOEFENER, REGIONAL DIRECTOR, U.S. FISH AND 
            WILDLIFE SERVICE, SACRAMENTO, CALIFORNIA

    Mr. Lohoefener. Good morning, Chairman McClintock, 
Congressman Calvert, Congressman Lewis. I am Ren Lohoefener, I 
am the Regional Director for the United States Fish and 
Wildlife Service, our Pacific South West region, which is 
California, Nevada, and parts of Oregon.
    I am happy to be with you this morning to testify on the 
critical habitat designation for the Federally threatened Santa 
Ana Sucker.
    As pressure increases for human use of water, largely 
through dams and water diversions, the amount of habitat for 
the Santa Ana Sucker continues to decrease.
    Today we estimate only 20 to 30 percent of the historic 
habitat remains for this species. Habitat loss occurs because 
water is generally diverted from the system upstream of areas 
occupied by the Santa Ana Sucker. Suitable habitat for this 
native fish is also being impacted by fire, off-road vehicles, 
mining operations, and nonnative plants. In addition, nonnative 
predators have been introduced throughout the aquatic system.
    Conservation of the Santa Ana Sucker has been the subject 
of litigation since it was first listed as a threatened species 
in 2000. In December of 2010, pursuant to a settlement 
agreement, the Service published a final revised rule that 
designated 9,331 acres along the Santa Ana River and its 
tributaries as critical habitat for the Santa Ana Sucker.
    This revision of critical habitat was the latest in a 
series of litigation-driven actions for this species that date 
to 2004, which relates to critical habitat, when the Service, 
responding to a court order, designated 21,000 acres along 
portions of the Santa Ana and its tributaries.
    To be clear, critical habitat does not create preserves, 
wilderness areas, or refuges, nor does it preclude development 
or use of an area. Rather, the designation of critical habitat 
prompts analyses of effects for projects proposed to be carried 
out, funded, or authorized--and this is important--by Federal 
agencies and Federal agencies only.
    This ensures the proposed activities will not destroy or 
adversely modify the designated critical habitat to the extent 
that it no longer retains the biological functions needed for 
conservation of the species.
    Since listing the Santa Ana Sucker in 2000, the Service has 
completed more than 30 consultations--30 consultations--
including consultations on projects in critical habitat. Most 
of the consultations addressed transportation, utility, or 
other in-stream construction projects.
    To date, the Service has not found any proposed project 
likely to jeopardize the continued existence of the species or 
adversely modify the species' critical habitat, and no water 
restrictions have been imposed by the Fish and Wildlife 
Service.
    When designating critical habitat for any species, the 
Service uses the best scientific and commercial information 
available to inform our decisions. We are committed to using 
high-quality science to inform our decisions.
    In accordance with our peer-review policy, we solicited 
review of our December 2010 designation by experts familiar 
with the Santa Ana Sucker and its habitat.
    The Endangered Species Act also requires us to consider the 
economic impacts of specifying an area as critical habitat. Our 
economic analysis, prepared by independent economists, 
determined that incremental impacts associated with 
specifically the designation of critical habitat could range 
from $14.3 million to $450 million over the next 20 years in 
present value terms.
    The economic analysis took a conservative approach, meaning 
that it is probably more likely to overestimate the cost than 
underestimate the costs
    Since the Santa Ana Sucker was listed, the Service has 
worked with multiple jurisdictions, including the 24 
participating permittees, through the Western Riverside 
Multispecies Habitat Conservation Plan, and also, of course, we 
are working cooperatively with other Federal, State, and local 
agencies on the Santa Ana Sucker Conservation Program.
    Mr. Chairman, this species continues to be a focus of 
litigation. Just last August, 10 water agencies and two cities 
filed a formal complaint in district court, challenging the 
revised critical habitat for the Santa Ana Sucker. 
Unfortunately, because of this litigation, I have to be careful 
in how I answer questions today. I will try to be as 
forthcoming as I can, but that certainly poses some 
limitations.
    To conclude, we enjoy a great working relationship with the 
Corps of Engineers. We will continue to work collaboratively 
with all partners in the area to both conserve habitat for the 
species, conserve the species, and work to ensure that human 
use and human considerations are taken into account to the 
fullest extent possible.
    Copies of my testimony have been provided by our 
Congressional Legislative Affairs Office to the Committee.
    [The prepared statement of Mr. Lohoefener follows:]

   Statement of Ren Lohoefener, Regional Director, Pacific Southwest 
   Region, Fish and Wildlife Service, U.S. Department of the Interior

    Good morning Chairman McClintock, Ranking Member Napolitano, and 
Members of the Subcommittee. I am Ren Lohoefener, Regional Director for 
the U.S. Fish and Wildlife Service's (Service) Pacific Southwest 
Region. Thank you for the opportunity to testify. The focus of my 
testimony will be on the Critical Habitat designation for the 
federally-threatened Santa Ana sucker.
    As pressure increases for water conservation (storage) for human 
use through dams and water diversions, the amount of suitable habitat 
(water) available to the Santa Ana sucker declines. This occurs because 
water is generally diverted from the system upstream of areas occupied 
by the Santa Ana Sucker. Suitable habitat for this native fish is also 
being impacted to variable extents by fire, off-road vehicles, mining 
operations and nonnative plants. Impacts from nonnative predators are 
also increasing at all six locations where Santa Ana suckers exist.
    Conservation of the Santa Ana sucker has been the subject of much 
litigation since it was first listed as a threatened species under the 
Endangered Species Act in April 2000. In December 2010, pursuant to a 
settlement agreement with environmental groups, the Service published a 
revised final rule designating 9,331 acres along the Santa Ana River 
and its tributaries as critical habitat for the Santa Ana sucker. This 
revision of critical habitat was the latest in a series of litigation 
driven actions for this species that date to 2004 when the Service, 
responding to a court order, designated 21,129 acres along portions of 
the Santa Ana and San Gabriel Rivers and Big Tujunga Wash as critical 
habitat for the sucker.
    Critical habitat does not create preserves, wilderness areas or 
refuges, nor does it necessarily preclude development or use of an 
area. Rather, designation of critical habitat prompts future analyses 
of effects for projects that are carried out, funded, or authorized by 
Federal agencies. This ensures such activities do not destroy or 
adversely modify the designated habitat to the extent that it no longer 
retains the biological functions that are essential to conservation of 
the species.
    Since listing the Santa Ana sucker in 2000, the Service completed 
over 30 consultations on the species, including projects in critical 
habitat areas. Most of the consultations addressed transportation, 
utility, or other in-stream construction projects. In no instance did 
the Service conclude that a proposed project was likely to jeopardize 
the continued existence of Santa Ana sucker or adversely modify the 
species' designated critical habitat, and no water restrictions have 
been imposed by our agency.
    In designating critical habitat for any species, the Service uses 
the best scientific and commercial data available to inform our 
decisions. I want to assure you that we remain steadfast in our efforts 
to have high-quality science and scholarship informing our decisions. 
In accordance with our peer review policy, we solicited review of our 
December 2010 revised rule by knowledgeable scientific experts familiar 
with the Santa Ana sucker, the geographic region, and conservation 
biology principles pertinent to the species. We reviewed all comments 
received from the peer reviewers for substantive issues and new 
information regarding critical habitat for Santa Ana sucker.
    The Endangered Species Act also requires us to consider the 
economic impacts of specifying any area as critical habitat. Our 
economic analysis, prepared by independent economists, determined that 
incremental impacts associated specifically with the designation of 
critical habitat could range from $14.3 to $450 million over the next 
20 years in present value terms. The economic analysis took a 
conservative approach--meaning it is more likely to overstate than 
understate costs.
    Since the Santa Ana sucker was listed, the Service has worked with 
multiple jurisdictions, including 24 participating permittees, through 
the Western Riverside County Multispecies Habitat Conservation Plan 
(Plan) which is a regional habitat conservation plan encompassing about 
1.26 million acres in western Riverside County. We also have worked 
cooperatively with other Federal, State, and local agencies on the 
Santa Ana Sucker Conservation Program (Program).
    Mr. Chairman, this species continues to be the focus of litigation. 
On August 23, 2011, 10 water agencies and two cities filed a formal 
complaint in U.S. District Court, challenging the revised final 
designation of critical habitat for the Santa Ana sucker. Because of 
the ongoing litigation, I am not able to talk about the issues 
specifically alleged in the complaint. However, I want to make it clear 
that the Service is continuing to work cooperatively with its many 
partners, including the 24 permittees to the Western Riverside County 
Plan, and members of the Santa Ana Sucker Collaborative Task Force, and 
the Santa Ana Sucker Conservation Program.
    We will continue to work collaboratively and transparently with all 
our partners, including water users, to move forward with potential 
conservation actions that may help the species. Ultimately, our goal is 
to realize a healthy, self-sustaining population of Santa Ana sucker 
and remove it from the list of threatened and endangered species. To 
achieve this goal, we will work with others to identify and apply a 
conservation strategy for the Santa Ana sucker so that future projects 
can be implemented without impacting the species.
    Mr. Chairman, this concludes my statement. I will be pleased to 
answer your questions.
                                 ______
                                 

Response to questions submitted for the record by the Fish and Wildlife 
                Service, U.S. Department of the Interior

Questions from Congresswoman Grace Napolitano:
    The committee received testimony from the hearing where witnesses 
stated that there is no new science to justify the 2010 final rule and 
that the same science has been used for both the 2005 and 2010 ruling.
Question 1: What science was used for the preliminary and final rule 
        for designation of critical habitat in 2005? What science was 
        used in 2010?
    Response: Critical habitat designations are made on the basis of 
the best available scientific and commercial information at the time of 
designation. The science used in the 2005 and 2010 critical habitat 
designations are explained in each of the final rules (70 FR 426: 
January 4, 2005 and 75 FR 77962: December 14, 2010). The 2010 rule 
incorporates information used in the 2005 rule and includes information 
and data generated since 2005. The criteria and methods used to 
identify and delineate the areas designated as critical habitat 
include:
        (1)  Mapping historical and current digital occurrence data for 
        Santa Ana sucker;
        (2)  Delineating the width of occupied areas to include areas 
        that provide sufficient riverine and associated floodplain area 
        for breeding, feeding, and sheltering of adult and juvenile 
        Santa Ana suckers and for the habitat needs of larval stage 
        fish and connectivity within and between populations;
        (3)  Delineating the upstream and downstream extents of the 
        areas to either the point of a natural or manmade barrier or to 
        the point where the instream gradient exceeds a 7 degree slope;
        (4)  Evaluating stream reaches to determine if additional 
        occupied or unoccupied areas are essential for the conservation 
        of this species and should be included;
        (5)  Adjusting the width to included areas containing: (a) wide 
        floodplains; (b) complex channels (such as alluvial fans and 
        braided channels); and (c) a mosaic of loose sand, gravel, 
        cobble, and boulder substrates in a series of riffles, runs, 
        pools, and shallow sandy stream margins needed to provide 
        stream and storm waters necessary to transport sediments to 
        maintain preferred substrate conditions in the downstream 
        occupied portions of the Santa Ana River and Big Tujunga Creek, 
        respectively; and
        (6)  Delineating the upstream limits of some river reaches by 
        identifying the upstream origin of sediment transport in these 
        tributaries to provide stream and storm waters necessary to 
        transport sediments to maintain preferred substrate conditions 
        in the downstream occupied portions of the Santa Ana River and 
        Big Tujunga Creek, respectively
    See the Criteria Used To Identify Critical Habitat section of the 
final rule for a detailed discussion (70 FR 426: January 4, 2005 and 75 
FR 77962: December 14, 2010). FWS also included the literature cited in 
attached files, which are part of decisional records for each rule and 
contain all the literature used in our rulemaking process. 
Additionally, in accordance with our peer review policy published on 
July 1, 1994 (59 FR 34270), FWS solicited review of our rule by 
knowledgeable individuals with scientific expertise that included 
familiarity with the species, the geographic region in which the 
species occurs, and conservation biology principles pertinent to the 
species. FWS reviewed all comments received from the peer reviewers for 
substantive issues and new information regarding critical habitat for 
Santa Ana sucker. The peer reviewers generally concurred with FWS 
methods and conclusions and provided additional information, 
clarifications, and suggestions that were incorporated into the revised 
final 2010 rule.
Question 2: What did the science indicate in 2005?
    Response: The decisional record and the SUMMARY of the 2005 revised 
final rule (70 FR 426: January 4, 2005) identified 23,719 acres of 
habitat essential to the conservation of the species.
Question 3: Why was there a change in the designation between 2005 and 
        2010?
    Response: The 2010 final revised rule updates our 2005 final 
critical habitat designation for Santa Ana sucker with the best 
available data. For some areas that were analyzed in 2005, new 
information led us to either add or remove an area from the proposed 
revised critical habitat designation and subsequently from this final 
rule. A summary of the changes between the 2005 and 2010 designation 
include:
        (1)  Refining the primary constituent elements (PCEs) to more 
        accurately define the physical and biological features that are 
        essential to the conservation of Santa Ana sucker;
        (2)  Revising criteria to more accurately identify critical 
        habitat;
        (3)  Improving the mapping methodology to more accurately 
        define critical habitat boundaries and better represent areas 
        that contain PCEs;
        (4)  Reevaluating areas considered for exclusion from critical 
        habitat designation under section 4(b)(2) of the Act; and
        (5)  Adding to, subtracting from, and revising those areas 
        previously identified as essential to the conservation of Santa 
        Ana sucker to accurately portray lands that meet the definition 
        of critical habitat based on the best scientific data 
        available. One example of a change from 2005 to 2010 is the 
        inclusion as critical habitat of stream reaches which provide 
        coarse sediments to downstream occupied areas. These coarse 
        sediments provide habitat features required for spawning and 
        foraging for the species in the occupied downstream areas.
    For a detailed explanation, please see the Summary of Changes From 
Previously Designated Critical Habitat and Summary of Changes From the 
2005 Final Critical Habitat to This Final Critical Habitat Designation 
sections and Table 1 of the final rule (75 FR 77962; December 14, 
2010).
Question 4: Was the 2005 final rule influenced or affected in anyway by 
        political interference?
    Response: Under section 4(b)(2) of the Endangered Species Act 
(Act), the Secretary may exercise his discretion to exclude a specific 
area from critical habitat designation if the determination is made 
that the benefits of excluding the area outweigh the benefits of 
inclusion. The rationale for any exclusion is usually included in our 
final rulemakings.
    The 2005 revised final rule (70 FR 426; January 4, 2005) signed by 
the former Assistant Secretary for Fish and Wildlife and Parks 
identified 23,719 acres of essential habitat for the Santa Ana sucker. 
However, only 8,305 acres of essential habitat was included in the 
final designation.
    Neither the 2005 rule nor its record explain the discrepancy 
between the 23,719 acres of essential habitat identified in the SUMMARY 
of the final rule as essential to the conservation of the species and 
the 15,414 acres of essential habitat that were excluded from 
designation.
Question 5: Why was the 2005 rule challenged? What caused the FWS to 
        reevaluate and revisit the 2005 rule?
    Response: On November 15, 2007, several environmental groups filed 
suit against U.S. Fish and Wildlife Service (FWS) alleging the 2005 
final designation of critical habitat violated provisions of the ESA 
and the Administrative Procedure Act [(California Trout, Inc., et al., 
v. United States Fish and Wildlife, et al., Case No. 07-CV-05798 (N.D. 
Cal.) transferred Case No CV 08-4811 (C.D. Cal.)]. The plaintiffs 
alleged that our January 4, 2005, final revised critical habitat 
designation for the Santa Ana sucker was insufficient for various 
reasons, including scientific interference, and that FWS improperly 
excluded areas in the Santa Ana River as critical habitat. 
Subsequently, FWS entered into a settlement agreement to reconsider 
critical habitat for the Santa Ana sucker, and to submit a proposed 
revision to the Federal Register on or before December 1, 2009. The 
proposed rule to revise critical habitat for the Santa Ana sucker was 
published in the Federal Register on December 9, 2009 (74 FR 65056).
Status of the Species:
Question 1: Testimony received from witnesses indicated that the 
        species has not been in a decline since its listing. What is 
        the status of the species now? Has there been a decline of the 
        species since its initial listing?
    Response: FWS is required by section 4(c)(2) of the ESA to conduct 
a status review of each listed species at least once every 5 years. The 
purpose of a 5-year review is to evaluate whether or not the species' 
status has changed since it was listed. In a 5-year review, FWS 
considers the best available scientific and commercial data on the 
species, and focuses on new information available since the species was 
listed or last reviewed. On March, 10, 2011, FWS completed a 5-year 
review for the Santa Ana sucker. Based on the information that the 
threats still affecting the species and its habitat persist, FWS 
recommended no change in the threatened status of the species.
    The following text is an excerpt from the synthesis section of our 
March 10, 2011, 5-year review for this species:
        ``At listing, Santa Ana suckers occurred at six extant 
        occurrences among three watersheds (two in the Santa Ana River, 
        three in the San Gabriel River, and one in the Los Angeles 
        River). These occurrences were threatened by habitat 
        destruction, natural and human-induced changes in stream flows, 
        urban development and land-use practices, intensive recreation, 
        introduction of nonnative predators, and risks associated with 
        small population size. Santa Ana suckers have persisted at the 
        same six occurrences, but are confined within a smaller portion 
        of their historical range. The number of individuals within 
        these areas has also declined and their remaining habitat is 
        highly fragmented and degraded. Since listing, threats have 
        continued to increase in magnitude and impacts to the habitat 
        have been amplified rangewide, increasing the potential 
        extirpation of the species in two of the three watersheds 
        (Santa Ana River and Los Angeles River).''
    The full 5-year review has been attached and provided.
Questions from Congressman Ken Calvert:
Question 1: In 2005, the U.S. Fish and Wildlife Service designated 
        critical habitat to protect the Santa Ana Sucker. What new 
        scientific evidence has been found that lead the service to 
        conclude that a new critical habitat designation was necessary?
    Response: At the time of listing in 2000 (65 FR 19686; April 12, 
2000), Santa Ana suckers occurred at six extant areas among three 
watersheds (two in the Santa Ana River, three in the San Gabriel River, 
and one in the Los Angeles River). These occurrences were threatened by 
habitat destruction, natural and human-induced changes in stream flows, 
urban development and land-use practices, intensive recreation, 
introduction of nonnative predators, and risks associated with small 
population size. Santa Ana suckers have persisted at the same six 
occurrences, but are confined within a smaller portion of their 
historical range. The number of individuals within these areas has also 
declined and their remaining habitat is highly fragmented and degraded. 
Based on information gathered since listing, threats to the species 
have continued to increase in magnitude and impacts to the habitat have 
been amplified rangewide, increasing the potential extirpation of the 
species in two of the three watersheds (Santa Ana River and Los Angeles 
River).
    A summary of the changes between the 2005 and 2010 designation 
include:
        (1)  Refining the primary constituent elements (PCEs) to more 
        accurately define the physical and biological features that are 
        essential to the conservation of Santa Ana sucker;
        (2)  Revising criteria to more accurately identify critical 
        habitat;
        (3)  Improving the mapping methodology to more accurately 
        define critical habitat boundaries and better represent areas 
        that contain PCEs;
        (4)  Reevaluating areas considered for exclusion from critical 
        habitat designation under section 4(b)(2) of the Act; and
        (5)  Adding to, subtracting from, and revising those areas 
        previously identified as essential to the conservation of Santa 
        Ana sucker to accurately portray lands that meet the definition 
        of critical habitat based on the best scientific data 
        available. One example of a change from 2005 to 2010 is the 
        inclusion as critical habitat of stream reaches which provide 
        coarse sediments to downstream occupied areas. These coarse 
        sediments provide habitat features required for spawning and 
        foraging for the species in the occupied downstream areas.
    For a detailed explanation, please see the Summary of Changes From 
Previously Designated Critical Habitat and Summary of Changes From the 
2005 Final Critical Habitat to This Final Critical Habitat Designation 
sections and Table 1 of the final rule (75 FR 77962; December 14, 
2010).
Question 2: Areas of dry riverbed have been included in the revised 
        Critical Habitat for the Santa Ana Sucker. How many Santa Ana 
        Suckers live in dry riverbed? Why was dry riverbed included in 
        a Critical Habitat designation for the Santa Ana Sucker? Is 
        there any precedent for such an action?
    Response: While there may be extended periods of time where 
portions of riverbeds associated with the critical habitat designation 
for Santa Ana sucker are dry, these areas are essential because they 
provide for coarse sediment delivery to areas downstream that are 
occupied by the species during seasonal flows or high water events. 
These coarse sediments provide habitat features required for spawning 
and foraging for the species. Our previous rulemakings identified 
unoccupied portions of the Santa Ana Wash as essential for the 
conservation of the species.
    In the 2004 final rule (69 FR 8839; February 26, 2004) designating 
critical habitat for the Santa Ana sucker, issued simultaneously with 
the 2004 proposed critical habitat designation, unoccupied portions of 
the Santa Ana Wash were identified as essential for the conservation of 
the species because they provide and transport sediment necessary to 
maintain the preferred substrates utilized by this fish (Dr. Thomas 
Haglund, pers. comm. 2004; Dr. Jonathan Baskin, Professor Emeritus, 
California State Polytechnic University, Pomona, pers. comm. 2004; NOAA 
2003); convey stream flows and flood waters necessary to maintain 
habitat conditions for the Santa Ana sucker; and support riparian 
habitats that protect water quality in the downstream portions of the 
Santa Ana River occupied by the sucker (69 FR 8845).
    In the 2010 revised final critical habitat designation for the 
Santa Ana sucker, FWS reaffirmed that spawning and feeding substrates 
(gravel and cobble), which are replenished by upstream sources, are 
essential to the reproductive ability and development of Santa Ana 
suckers in the downstream occupied reaches (Kondolf 1997, pp. 533-535, 
536-537). The sections of the Santa Ana River above Tippecanoe Avenue 
in San Bernardino, City Creek, and Mill Creek (although not currently 
occupied) are essential for the conservation of the species since the 
Seven Oaks Dam has reduced the transport of coarse sediment and altered 
the natural flow in the downstream, occupied areas of the Santa Ana 
River. These sections are the primary sources of coarse sediment in the 
upper Santa Ana River watershed and additionally are part of the Santa 
Ana River hydrologic system (PCE1), and assist in maintaining water 
quality and temperature to occupied reaches of the Santa Ana River; 
therefore, these areas are essential for the conservation of Santa Ana 
sucker (75 FR 77978).
Question 3: In December of 2010, your agency revised the Critical 
        Habitat Designation for the Santa Ana Sucker. Several Members 
        of this Congress, including myself, contacted you in advance of 
        your action requesting that the U.S. Fish and Wildlife Service 
        take into account critically important economic and 
        infrastructure concerns that were raised by a group of local 
        stakeholders before that Critical Habitat Designation was made. 
        Can you explain to us why your agency disregarded these 
        concerns in issuing the revised habitat?
    Response: All comments from Members of Congress and stakeholders 
were taken into consideration when making the revised final designation 
of critical habitat for the Santa Ana sucker. A draft of the economic 
analysis was made available for public review and comment. The final 
economic analysis quantified the economic impacts of all potential 
conservation efforts for Santa Ana sucker.
    The economic impact of the proposed revised critical habitat 
designation was analyzed by comparing scenarios both ``with critical 
habitat'' and ``without critical habitat.'' The ``without critical 
habitat'' scenario represents the baseline for the analysis, 
considering protections that are already in place for the species (such 
as protections under the Act and other Federal, State, and local 
regulations). The baseline, therefore, represents costs incurred 
regardless of whether critical habitat is designated.
    The ``with critical habitat'' scenario describes incremental costs 
attributable solely to the designation of critical habitat above and 
beyond the baseline costs. The Draft Economic Analysis qualitatively 
discusses the potential incremental economic benefits associated with 
the designation of critical habitat.
    The analysis forecasts both baseline and incremental impacts likely 
to occur if FWS finalized the proposed revised critical habitat 
designation. The final analysis determined incremental impacts 
associated specifically with the designation of critical habitat could 
range from $14.3 to $450 million over the next 20 years in present 
value terms using a 7 percent discount. After consideration of the 
economic impacts, the Secretary did not exercise his delegated 
discretion under section 4(b)(2) of the Act to exclude any areas from 
the final critical habitat designation based on the economic impacts.
    FWS also reviewed the ``Husing'' economic report and adjusted the 
potential economic impacts in the Final Economic Analysis for the 
designation. For example, the Husing report assumes that all water 
projects in Unit 1 (Santa Ana River/Plunge Creek) will no longer have 
access to water sources in critical habitat areas following critical 
habitat designation for sucker. Some of these projects are existing, 
ongoing projects, while others are planned future projects. The Husing 
reports estimate that the total annual volume of water needing 
replacement, beginning in 2010, is 125,800 acre-feet and then applies 
the current cost of State Water Project Water (Metropolitan Water 
District) Tier 2 rate of $594 ($811 less $217 treatment surcharge), 
raised at a rate of 2.97 percent over inflation over a 26 year period, 
to estimate the longer term costs of this loss. Husing does not 
discount his estimates, arriving at an undiscounted total value of 
$2.87 billion over 26 years.
    Following receipt of public comments on this issue, FWS provided 
estimates of the likelihood of critical habitat impacts on projects 
identified in the Husing report. These are included in the Final 
Economic Analysis (Exhibit 3-3). In the Final Economic Analysis, FWS 
qualitatively provided its rationale as to why it concluded that the 
costs identified in the report were an overestimate and did not 
accurately reflect the incremental costs of the critical habitat 
designation (Industrial Economics 2010). FWS believes costs identified 
in the Husing report are overestimates because any projects with a 
Federal nexus that would impact the Santa Ana sucker would still 
require section 7 consultation with FWS. Therefore, many of the costs 
are actually not associated with the designation of critical habitat. 
Rather, they are baseline costs that would be incurred regardless of 
critical habitat designation. Also, FWS considers the assumption that 
all water diversions will be curtailed as was asserted in some of the 
comments received on the proposed rule to be speculative and not 
factually supported.
    Significant economic and infrastructure concerns were expressed by 
stakeholders regarding the proposed designation of critical habitat in 
Plunge Creek above Seven Oaks Dam that is not known to be occupied by 
the species. In the final revised rule, FWS removed this area from 
designation.
Question 4: The Santa Ana Sucker was protected under an existing 
        Habitat Conservation Plan and a Critical Habitat Designation, 
        both of which had been in place for many years. Local agencies 
        were working in partnership with your agency to study the fish 
        and protect its future. Why was a revised Habitat Designation 
        necessary and why was it necessary to designate new lands 
        within the habitat conservation plan?
    Response: Since the Santa Ana sucker was listed over a decade ago, 
FWS has worked with multiple jurisdictions, including 22 participating 
permittees, through the Western Riverside County Multiple Species 
Habitat Conservation Plan (Plan). FWS also have worked cooperatively 
with other Federal, State, and local agencies on the Santa Ana Sucker 
Conservation Program (Program).
    In the 2010 revised final rule, FWS analyzed the benefits of 
including lands covered by the Plan and the Program in the final 
designation and the benefits of excluding those lands from the 
designation. Although both the Plan and Program have established 
valuable partnerships that are intended to implement conservation 
actions for Santa Ana sucker, potential future activities, not 
addressed by either the Plan or Program but with a Federal nexus, could 
affect the sucker or its habitat and would be subject to the 
interagency consultation provisions of section 7 of the Act. In 
conducting the evaluation under section 4(b)(2) of the ESA, FWS 
determined the benefits of inclusion outweighed the benefits of 
excluding these areas because the designation will assist in achieving 
additional conservation not currently provided under the Plan or 
Program areas. The analysis and rationale are explained in in the final 
rule.
    Furthermore, activities that were already permitted under the 
Western Riverside County Multiple Species Habitat Conservation Plan are 
not affected by the designation of critical habitat. FWS analyzed the 
potential loss or degradation of up to 376 acres of Santa Ana sucker 
critical habitat resulting from covered activities under the Plan and 
completed an amendment to the Biological Opinion for the Plan. Our 
Biological Opinion concluded that offsetting land conservation and 
adaptive management prescriptions provided by the Plan are sufficient 
such that the ecological function and value of the primary constituent 
elements for the Santa Ana sucker will not be appreciably diminished.
Question 5: Why did the USFWS decline to participate in the development 
        of the Seven Oaks Dam Project? Since Santa Ana Sucker Habitat 
        was being discussed, wouldn't it have been appropriate and 
        prudent for the Service to participate?
    Response: Congressional authorization enabled construction of Seven 
Oaks Dam. FWS consulted on effects of the project in 1989. A second 
consultation on operations of Seven Oaks Dam for flood control purposes 
was completed in 2002.
    Recent hearings before the California State Water Resources Control 
Board took place to grant water rights for the purpose of appropriating 
water by direct diversion and storage to groundwater basins for 
beneficial use. The water rights decision outlined in the STATE OF 
CALIFORNIA STATE WATER RESOURCES CONTROL BOARD DECISION 1649 contains 
several orders including:
        Order: 14. Nothing in this permit shall be construed as 
        authorizing any diversions contrary to the provisions of the 
        December 19, 2002 Biological Opinion issued by United States 
        Fish and Wildlife Service for operation of Seven Oaks Dam, as 
        may be revised in the future, including flow releases for 
        downstream over-bank inundation to preserve State and federally 
        listed threatened and endangered species and their habitat.
    Due to the Carlsbad Fish and Wildlife Office having an overwhelming 
consultation and litigation workload, driven in large part by deadlines 
that force the FWS to set priorities, the Service was unable to 
participate in the state water rights hearings.
    Furthermore, because the operation of Seven Oaks Dam, in 
coordination with Prado Dam downstream, is currently permitted for 
flood control operations only (operations that regulate flows 
throughout the year in an effort to prevent catastrophic flow events 
downstream), and not for water storage purposes, the flow of water 
through the dam currently provides water necessary for reaches of the 
Santa Ana River downstream that are occupied by the Santa Ana sucker.
    Notwithstanding the recent decision by the California State Water 
Resources Control Board to allow, under certain circumstances, up to 
200,000 acre-feet to be diverted from the Seven Oaks Dam reservoir, 
storing water for the purpose of water conservation is not currently 
permitted?? by the U.S. Army Corps of Engineers for Seven Oaks Dam. 
Should the Corps of Engineers propose a reoperation of Seven Oaks Dam 
so water can be diverted for water conservation purposes, such action 
would constitute a project requiring consultation under section 7 of 
the ESA.
                                 ______
                                 
    Mr. McClintock. OK, thank you, Mr. Lohoefener
    I now would like to recognize Colonel Michael Wehr, 
Commander of the South Pacific division for the U.S. Army Corps 
of Engineers from San Francisco, California, to testify.

  STATEMENT OF COLONEL MICHAEL WEHR, COMMANDER, SOUTH PACIFIC 
    DIVISION, U.S. ARMY CORPS OF ENGINEERS, SAN FRANCISCO, 
                           CALIFORNIA

    Colonel Wehr. Mr. Chairman, Congressman Lewis, and 
Congressman Calvert, I am Colonel Mike Wehr, the Commander of 
South Pacific Division for the U.S. Army Corps of Engineers.
    I am honored to be here today to testify, again, on behalf 
of Major General Temple. My testimony will discuss the Corps' 
approach to critical habitat management and ongoing 
construction, operation, and maintenance of the Santa Ana River 
Mainstem flood risk reduction project, hereon referred to as 
the project.
    The project consists of Seven Oaks Dam in San Bernardino 
County, the Prado Dam in Orange County. It includes 75 miles of 
flood protection, fish and wildlife mitigation, and 
recreational features along the Santa Ana River through Orange 
County, San Bernardino and Riverside Counties.
    In conjunction with the physical construction of our 
projects, we are committed to protecting life and property, and 
being good stewards of the environment, while being fully aware 
of water supply requirements.
    The Corps works with the U.S. Fish and Wildlife Service in 
the objective of recovering the Santa Ana Sucker and protecting 
its habitat. On 2 August 2010, we submitted a letter related to 
the Service's Santa Ana Sucker critical habitat proposal and 
draft economic analysis. In this, comment letter, we alerted 
the Service of the potential impacts of the critical habitat 
designation on the ongoing future construction and continued 
operations of the project. The purpose of the letter was to 
ensure that the Service was aware of the vital importance of 
the project in protecting lives and property, and requested 
that they consider these factors when making its final 
determination. The Service was responsive to our concerns.
    Since the recent designation of the critical habitat, the 
Corps and the Service have cooperated to ensure the 
construction is not delayed while we analyze potential effects 
of ongoing operations. Construction of the bank revetment 
consisting of sheet piles and riprap below Prado Dam remains on 
schedule. We recently awarded the construction contract of the 
initial phase of channel improvements as well.
    The Corps and local sponsors also continue to operate Prado 
and Seven Oaks Dam while completing designs for the remaining 
features, including bank protection, dikes, and raising the 
Prado Dam spillway.
    The Corps has begun the process of evaluating whether the 
construction and operation of various features of the project 
individually and cumulatively may adversely affect critical 
habitat. The analysis will include a review of the project with 
and without the project using hydraulic and hydrologic data, 
existing and predicted future habitat conditions of the Santa 
Ana Sucker population.
    Prior to initiating new construction in the summer of 2012, 
we must complete this analysis, and if necessary, complete 
formal section 7 consultation under the Endangered Species Act.
    Potential species impacts have been addressed in previous 
consultations for the project. The Corps has expended $10 
million for Santa Ana Sucker habitat restoration surveys and 
relocations under section 7. This investment equates to a half 
a percent of the $2 billion project cost, which does in fact 
provide over $15 billion in protection and flood risk reduction 
within the watershed.
    The Corps is also participating in a collaborative process 
with resource agencies, water districts, flood control 
districts, and other interested parties. The objective is to 
seek potential solutions for improving conditions for the Santa 
Ana Sucker without adversely impacting vital water resource 
programs.
    In the interim, ongoing construction and distant operations 
have not been impeded by the critical habitat designation.
    In terms of our regulatory program, the expanded 
designation of critical habitat may increase the number of 
consultations with the Service for proposed permits under the 
Rivers and Harbors and Clean Water acts.
    As part of the permit application evaluation process, we 
must ensure the projects and project modifications comply with 
the Endangered Species Act, potential impacts to critical 
habitat must be considered in addition the impacts to the 
species itself. Generally speaking, the presence of critical 
habitat results in the Corps and Service consultation even when 
there is no impact or no effect determination made for that 
species.
    In closing, public safety is a number one priority for the 
Federal community of the Corps of Engineers. The Service works 
closely with us, and we share a common goal to avoid imminent 
loss of human life and property while managing flood risk, 
while incorporating environmental protection and stewardship.
    This concludes my statement. Again, I appreciate the 
opportunity to testify today, and I would look forward to 
answering questions, along with Mr. Brian Moore of the panel.
    [The prepared statement of Colonel Wehr follows:]

    Statement of Colonel Michael C. Wehr, Commander, South Pacific 
                               Division, 
                      U.S. Army Corps of Engineers

Introduction
    Mr. Chairman and distinguished members of the Subcommittee, I am 
Colonel Michael Wehr, Commander of the U.S. Army Corps of Engineers 
(Corps) South Pacific Division. I am honored to be testifying before 
your Subcommittee today. My testimony today will discuss the Corps 
approach to critical habitat management and ongoing construction, 
operation and maintenance of the Santa Ana River Mainstem project.
Background
    The Corps supports the U.S. Fish and Wildlife Service's (Service) 
objective of recovering the Santa Ana sucker and protecting its 
habitat. In a comment letter dated August 2, 2010, on the Santa Ana 
Sucker Critical Habitat Proposal and Draft Economic Analysis, Docket 
No. FWS-R8-ES-2009-0072, the Corps alerted the Service of the potential 
impacts of critical habitat designation on ongoing and future 
construction of the Santa Ana River Mainstem flood risk reduction 
project (SARP), as well as continued operations of project features. 
The purpose of the letter was to ensure that the Service was aware of 
the vital importance of the SARP in protecting lives and property, and 
to request that the Service consider these factors when making its 
final determination.
Effects on the Construction and Operations of Santa Ana River Mainstem
    Since the recent designation of critical habitat, the Corps and the 
Service are working cooperatively to ensure that construction is not 
delayed while we analyze potential effects of ongoing operations. 
Construction of ``Reach 9 Phase 2B'' (below Prado Dam) is on schedule, 
and we recently awarded the construction contract for ``Reach 9 Phase 
2A.'' The Corps and local sponsors also continue to operate Prado Dam 
and Seven Oaks Dam while we are completing design work for additional 
features.
    The Corps has also begun the process of evaluating whether the 
construction and operation of various features of the SARP 
(individually or cumulatively) may adversely modify critical habitat. 
This analysis will include a review of ``with and without project'' 
hydraulic and hydrologic data, existing and predicted future habitat 
conditions, Santa Ana sucker population data, and other information. 
This analysis will likely take several months to complete. The Corps 
Los Angeles District's goal is to complete this analysis and, if 
necessary, complete formal Section 7 (Endangered Species Act) 
consultation prior to initiating new construction that would directly 
affect perennial stream habitat (currently scheduled for late summer 
2012).
    Currently the Corps does not anticipate that the designation of 
critical habitat will trigger requirements beyond those just described. 
Potential species impacts have been addressed in previous 
consultations, and the Corps has already expended or committed $10 
million for sucker habitat restoration, surveys and relocations under 
previous Section 7 consultations.
    The Corps is also participating in a collaborative process with 
resources agencies, water districts, flood control districts and other 
interested parties. The objective is to seek potential solutions for 
improving conditions for the Santa Ana sucker, without adversely 
impacting vital water resources programs.
    In the interim, ongoing construction and existing operations have 
not been impeded by the critical habitat designation.
Regulatory Considerations
    The expanded designation of critical habitat may increase the 
number of consultations with the Service for proposed activities 
requiring authorizations under the Rivers and Harbors and Clean Water 
Acts. As part of the permit application evaluation process, staff from 
the Corps Regulatory program must ensure that projects and project 
modifications comply with the Endangered Species Act. Potential impacts 
to both critical habitat must be considered in addition to impacts to 
the species itself. The Corps will review the primary constituent 
elements identified in the Federal Register final rule for critical 
habitat and determine whether consultation for critical habitat is 
needed. Generally, the presence of critical habitat results in the 
Corps and Service undertaking consultation, even where there is a ``no 
effect'' determination made for the species. Also, the 2010 
redesignation of critical habitat declined to exclude the lands in the 
Santa Ana River watershed covered by the Santa Ana Sucker Conservation 
Program and the Western Riverside County Multiple Species Habitat 
Conservation Plan from critical habitat designation. Consequently, more 
projects may now be subject to Endangered Species Act Section 7 
requirements.
    This concludes my statement. Again, I appreciate the opportunity to 
testify today. I would be pleased to answer any questions you or other 
Members of the Subcommittee may have.
                                 ______
                                 
    Mr. McClintock. Thank you, Colonel Wehr.
    I would now like to recognize Mr. John Rossi, the General 
Manager of Western Municipal Water District from Riverside, 
California, to testify.
    Welcome.

  STATEMENT OF JOHN ROSSI, GENERAL MANAGER, WESTERN MUNICIPAL 
             WATER DISTRICT, RIVERSIDE, CALIFORNIA

    Mr. Rossi. Mr. Chairman, Mr. Calvert, Mr. Lewis, thank you 
for inviting me to testify today regarding the critical habitat 
designation for the Santa Ana Sucker fish.
    To lead with my conclusion, the 2010 critical habitat 
designation for the Sucker would cause massive economic 
hardship in a region already besieged by the recent economic 
downturn, threatens the already-fragile California Bay-Delta 
system, and fails to provide any real benefit to the species. 
The Service should vacate the ruling and revert to their 2005 
critical habitat designation.
    Western Municipal Water District is a regional wholesale 
water agency and a member of the Metropolitan Water District of 
Southern California. We provide wholesale water, retail water, 
and wastewater services to a 500-square mile service area 
within Riverside County with a population of over 800,000 
people. Our region is still growing in spite of taking a 
massive hit from the recent economic downturn.
    Current growth projections require us to plan for huge 
increases in water demand over the coming years.
    Imported water supplies are facing deep and sustained cuts. 
For instance, the State Water Project currently accounts for 
about 60 percent of the needs of Riverside County of the Inland 
Empire. But Federal court rulings on Delta Smelt left us facing 
as much as 40 percent cutbacks in just the last couple of 
years. Due to drought and water quality concerns, the Colorado 
River is also an uncertain source of water.
    Rather than simply praying for rain, our region has 
undertaken a number of projects to grow in-basin water 
supplies. One of the most important projects is the Seven Oaks 
Dam Stormwater Management Project, a joint effort between my 
agency and the San Bernardino Valley Municipal Water District. 
It is the largest new water project developed and the Inland 
Empire since the State Water Project. It will help us to 
capture up to 200,000 acre-feet of additional stormwater each 
year from local mountains and use it for groundwater recharge 
and water banking.
    New water supplies created by this project would replace 
imported water from the State Water Project and the Colorado 
River in times of drought or other shortages.
    We spent many years and millions of dollars developing this 
project. We also undertook an 18-year process to secure water 
rights to some of the water stored behind the Seven Oaks Dam. 
Throughout that time, we worked very closely with the 
California Department of Fish and Game, as well as the United 
States Forest Service. As a result of these conversations and 
discussions, we reached an agreement with both agencies to 
protect natural resources, including the Santa Ana Sucker 
habitat. Oddly, the Fish and Wildlife Service did not 
participate in that process.
    During the water rights process, the State Water Resources 
Control Board found that the project would not harm the Sucker 
since the water we would store came from areas where the Sucker 
never existed and because natural water and cobble-moving flows 
below the dam were sufficient to satisfy the Suckers' needs.
    The board's findings were very much in line with the 
Service's 2005 critical habitat designation for the Sucker. 
That designation did not include the dry upper Santa Ana River 
areas as habitat, finding that these areas were, and I quote 
from the 2005 designation, ``not essential to the conservation 
of the species.'' That designation in '05 also found that 
enormous cost to the Inland Empire's economy far outweighed any 
benefits to the species.
    We believe that the '05 designation struck the proper 
balance between species protection and infrastructure 
development. The 2010 habitat designation, however, fails to 
strike that balance. It ignores the best available science, 
including findings by the State Water Resources Control Board 
that the Sucker would not be impacted by our project. It also 
fails to account for the dire economic impacts that could 
result from the ruling.
    There is no clear evidence that any of the newly designated 
areas have ever supported a population of Suckers. Many of 
these areas are very dry, bone dry for up to 10 or 11 months 
out of each year, and others are prone to flooding and do not 
have the proper substrates, water temperatures, or other 
environmental conditions needed for the Sucker. Simply put, the 
decision would not help the Sucker.
    Finally, the Service fails to provide the scientific 
evidence to justify the designation and ignores key 
environmental data. Again, the critical habitat in 2010 for the 
Sucker would void innovative local water supply projects, 
causing economic hardship. It provides no benefit, and it is 
not supported by the best science.
    We urge the Service to rescind the rule and revert to the 
more defensible '05 action.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Rossi follows:]

               Statement of John Rossi, General Manager, 
                    Western Municipal Water District

    Mr. Chairman, Members of the Subcommittee, thank you for inviting 
me to testify today regarding the critical habitat designation for the 
Santa Ana Sucker (Sucker). To lead with my conclusion, the 2010 
critical habitat designation for the Sucker would cause massive 
economic hardship in a region already besieged by the recent economic 
downturn, threatens the already-fragile California Bay-Delta system, 
and fails to provide any benefit to the species. The US Fish and 
Wildlife Service (Service) should vacate the ruling and revert to their 
2005 critical habitat designation.
    Western Municipal Water District is a regional wholesale water 
agency and a member of the Metropolitan Water District of Southern 
California. We provide wholesale and retail water and wastewater 
services to a 527 square mile service area with a population of over 
800,000 people. Our region is still growing in spite of taking a 
massive hit from the economic downturn. Current growth projections 
require us to plan for huge increases in water demand over the coming 
years.
    Even while we plan for this growth, imported water supplies are 
facing deep and sustained cuts. For instance, the State Water Project 
currently accounts for about 60 percent of the water needs of Riverside 
County. But federal court rulings on the Delta Smelt left us facing as 
much as a 40 percent cutback in recent years. Due to drought and water 
quality concerns, the Colorado River is also an uncertain source of 
water.
    Rather than simply praying for rain, we have undertaken a number of 
projects to grow in-basin water supplies. One of the most important 
projects is the Seven Oaks Dam Stormwater Management Project, (Seven 
Oaks Project), a joint effort between my District and the San 
Bernardino Valley Municipal Water District. It would be the largest new 
water project developed in the Inland Empire since the State Water 
Project. It will enable us to capture up to 200,000 acre-feet of 
additional stormwater each year from the local mountains and use it for 
groundwater recharge and water banking.
    New water supplies created by the Seven Oaks Project would replace 
imported water from the California State Water Project and the Colorado 
River in times of drought or other shortages.
    By better managing our precious imported water supplies, it 
supports the Secretary of the Interior's role as Watermaster of the 
Lower Colorado River. We believe the project is integral to the State 
of California's effort to implement the Quantification Settlement 
Agreement, a key foundation for future Lower Colorado River management 
by the Secretary.
    Further, the project will be integral to the implementation of the 
``Seven States Agreement'' in the Colorado River Basin. We are all very 
pleased that this accord has been signed and we now build projects 
which help address shortages on the Colorado River.
    We spent many years and millions of dollars developing the Seven 
Oaks Project. We also undertook a 18 year process to secure rights to 
some of the water stored behind the Seven Oaks Dam. Throughout that 
time, we worked very closely with the California Department of Fish and 
Game as well as the United States Forest Service. As a result of these 
discussions, we reached an agreement with both agencies to protect 
natural resources, including Santa Ana Sucker habitat. Oddly, the US 
Fish and Wildlife Service declined to participate in that process.
    During the water rights process, the State Water Resources Control 
Board (Board) found that the project would not harm the Sucker since 
the water we would store came from areas where the Sucker never existed 
and because natural water and cobble-moving flows below the dam were 
sufficient to satisfy the Sucker's needs.
    The Board's findings were very much in line with the Service's 2005 
critical habitat designation for the Sucker. That critical habitat 
designation did not include the dry upper Santa Ana River areas as 
critical habitat, finding that these areas were, and I quote from the 
2005 designation, ``not essential to the conservation of the species.'' 
The 2005 designation also found that the enormous costs to the Inland 
Empire's economy far outweighed any benefits to the species.
    We believe the 2005 critical habitat designation struck the proper 
balance between species protection and infrastructure development. The 
Service's 2010 critical habitat designation, however, fails to strike 
that balance. It ignores the best available science, including findings 
by the State Water Resources Control Board that the Sucker would not be 
impacted by our project. It also fails to account for the dire economic 
that could result from their ruling. Let me flesh these issues out a 
bit.
    There is no clear evidence that any of the newly designated areas 
have ever supported a population of Suckers. Many of these areas are 
bone dry for up to eleven months out of the year and others are prone 
to flooding otherwise do not have the proper substrates, water 
temperatures or other environmental conditions needed for the Sucker. 
Simply put, this decision will do nothing to help the Sucker.
    But the consequences of the critical habitat designation could be 
enormous. The critical habitat designation threatens our rights to 
water behind the dam and could spell the end of our Seven Oaks Dam 
Stormwater Management Project. The impact of that cannot be 
understated.
    You will hear testimony from others on the potential for economic 
damage, so I will not dwell on that other than to say that imported 
water is far more expensive than local supplies. We could lose up to 
125,800 acre feet of water a year to the Inland Empire. Importing this 
amount of water each year for 25 years would cost nearly $3 billion.
    And that assumes that imported water is even available. In March 
2011, with California's snow pack at 165% of normal, the State Water 
Project estimated that it will only be able to supply its regional 
water agencies with 70% of their current water allocations. In recent 
years those shares were 50% in 2010, 40% in 2009, 35% in 2008 and 60% 
in 2007. If we need more water from the State Water Project, we will 
very likely not be able to get it. Therefore this local supply is 
critical to our region.
    The 2010 ruling, couched as environmentally sensitive, is actually 
an environmental loser. The Sucker's critical habitat designation will 
force us to curtail water conservation, recycling, and conjunctive use 
projects. Instead we will have little choice but to rely on whatever 
imported water is available, including water from the already fragile 
By-Delta system.
    Finally, the Service fails to provide scientific evidence to 
justify the critical habitat designation and ignored key environmental 
data. The agency's key argument that high water flows are beneficial to 
the species is belied by studies that show such flows actually harm 
Sucker habitat. The Service also ignored the species conservation 
efforts undertaken by the water agencies, efforts that included 
monitoring surveys, invasive species removal, and enhanced project 
management.
    Again, the 2010 critical habitat for the Sucker could void 
innovative local water supply projects thus causing massive economic 
hardship, threatens the Bay-Delta system, provides no benefit to the 
species, and is not supported by the best science. We urge the Service 
to rescind their ruling and revert to their more defensible 2005 
decision.
                                 ______
                                 

     Response to questions submitted for the record by John Rossi, 
           General Manager, Western Municipal Water District

        1.  Mr. Chairman, conservation efforts for the Santa Ana Sucker 
        were discussed as part of the hearings and meetings related to 
        our water rights application to the State Water Resources 
        Control Board. The Service declined to participate in that 
        process. Let me provide a timeline of events.

           In 2002, the Service issued a Biological Opinion that found 
        that the operation of Seven Oaks Dam for flood control would 
        not have an adverse effect on the Santa Ana Sucker. When 
        Western Municipal Water District and San Bernardino Valley 
        Municipal Water District prepared the Draft EIR for our water 
        conservation project in 2004, we met with the Service. We 
        explained that the water conservation operation of Seven Oaks 
        would keep the maximum water level below the level analyzed by 
        the Corps of Engineers and found not to adversely effect the 
        Santa Ana Sucker. The Service then chose not to participate in 
        the State Water Resources Control Board hearings on the water 
        right application. Unlike the U.S. Forest Service or the 
        California Department of Fish & Game, the Service did not 
        protest our application, did not appear at the hearing, and 
        never indicated they were concerned about the project's effects 
        on the Santa Ana Sucker. A reason was not forwarded as to why 
        F&S did not participate in the state water resource control 
        board process. Then, in 2009 they agreed to reconsider the 
        critical habitat for the species.
        2.  Mr. Chairman, Section 7 consultation would have been 
        required for actions that may have affected the Santa Ana 
        Sucker even without the expanded critical habitat designation 
        for the species. However, the designation does add another 
        dimension to a Section 7 consultation. In addition to reviewing 
        a proposed project's effects on the species, we will now have 
        to address impacts to the critical habitat. This higher 
        threshold clearly threatens crucial water supply projects.
        3.  Mr. Chairman, I question how the Service can claim that 
        infrastructure project delays resulting from ``regulatory 
        uncertainty'' are only ``indirect, incremental impacts of 
        critical habitat designation.'' Our ratepayers struggle to 
        understand why we are spending millions of dollars of project 
        planning and design if that project may not move forward due to 
        the ever-changing federal rules. In the real world, the effect 
        of the critical habitat designation is neither ``indirect'' nor 
        ``incremental.''
        4.  Mr. Chairman, under California state law, water service 
        providers must evaluate whether water supplies are sufficient 
        to meet the proposed project's water demands over a 20 year 
        period. The projects cannot proceed if the water agencies 
        cannot certify sufficient supplies. The Sucker's critical 
        habitat designation could make it extremely difficult for us to 
        certify that sufficient water exists for projects. In that 
        case, our region will not be able to expand our current 
        businesses, much less attract new businesses to the region. 
        This would kill our already struggling local economy.
        5.  With the uncertainty that the critical habitat designation 
        causes, it could imperial the agencies ability to fund the 
        improvements necessary to capture the water for storage and 
        distribution. Otherwise, the stormwater, an important source of 
        water, will flow out to the ocean and be lost as a water 
        supply.
                                 ______
                                 
    Mr. McClintock. Thank you, Mr. Rossi.
    Our final witness is Ms. Stacey Aldstadt, General Manager 
of the City of San Bernardino Water Department from San 
Bernardino, California, to testify.

        STATEMENT OF STACEY ALDSTADT, GENERAL MANAGER, 
   CITY OF SAN BERNARDINO WATER DEPARTMENT, SAN BERNARDINO, 
                           CALIFORNIA

    Ms. Aldstadt. Good morning, Mr. Chairman, Mr. Lewis, and 
Mr. Calvert. My name is Stacey Aldstadt, and I am the General 
Manager for the City of San Bernardino Municipal Water 
Department.
    As reported yesterday in the San Bernardino Sun, our 
community is one of the poorest in the country, second only to 
Detroit in those living below the poverty level.
    Despite its ranking as one of the poorest cities in the 
United States, the Federal Government now wants San Bernardino 
ratepayers to pay even more, more money for mitigation, more 
money for recycled projects, more money for recharge, without 
any guarantee that more money will help either the habitat or 
the existence of the Santa Ana Sucker.
    Since 1996 when San Bernardino began discharging highly 
treated wastewater into the semi-dry stretch of the Santa Ana 
River below La Cadena Drive in Riverside County, wastewater 
from our RIX facility has created abundant habitat for the 
Sucker.
    The amount of treatment that San Bernardino uses at the RIX 
facility is so extensive that the water entering the riverbed 
is crystal clear, free of pollutants, and very, very high 
quality.
    The people who pay to recycle this water, the ratepayers of 
San Bernardino, Highland, and Loma Linda, also pay for water 
from the Bay Delta to recharge our local groundwater basins.
    San Bernardino wants to reduce the amount of wastewater 
that is discharged into the river and recycle it to replenish 
our groundwater basin. San Bernardino also wants to reduce the 
amount of water it draws from the Bay Delta, as that water 
source is unreliable and subject to environmental restrictions.
    It isn't enough that some of the poorest people in this 
Nation support the cost of high-level wastewater treatment. The 
Center for Biological Diversity would have them shoulder the 
costs of sustaining the Santa Ana Sucker, the costs to purchase 
water from the Bay Delta, and the costs of an unsustainable, 
unstable water supply
    For decades, the San Bernardino Water Department and other 
regional water agencies have been doing our job in making plans 
for a sustainable, cost-effective, local water supply. Despite 
all of the planning that has been done and all of the money 
that has been spent by regional taxpayers, we might still be 
left in an artificial drought by the recent actions taken by 
the United States Fish and Wildlife in expanding the area of 
critical habitat.
    The ultimate irony, of course, is that we all thought we 
were doing the right things. Our agency's plan for decades to 
provide sustainable water supplies so that we could reduce our 
dependence on water from the North and, not coincidentally, to 
reduce impacts to the Delta Smelt. My agency and others began 
working on sustainability of the Santa Ana Sucker back in 1999. 
We have spent money and valuable staff time doing fish 
population and breeding surveys, water temperature testing, and 
habitat restoration projects.
    We sat at the table side-by-side with the United States 
Fish and Wildlife for over 10 years and relied on their 
assurances that we were good stewards and that our efforts 
would be appreciated. And in fact, in the original 2005 
critical habitat designation, the U.S. Fish and Wildlife 
Service excluded the areas that were under our management in 
the Santa Ana Sucker Conservation Program for that very reason. 
At that time, U.S. Fish and Wildlife Service recognized that 
our team knew what it was doing.
    Pushing the costs of preserving a species onto the 
shoulders of the poorest people in the United States might make 
sense if the science said that the fish is truly in decline or 
that there were particular things that would help it. However, 
after the many hours that we have spent studying the subject, I 
can say that there is no credible scientific evidence that the 
Santa Ana Sucker is truly in decline.
    The Center for Biological Diversity as a latecomer to the 
conservation team and a hit-or-miss attendee has absolutely no 
credibility on this issue. In fact, the numbers are all over 
the board.
    There is no evidence to indicate what if anything is 
causing a problem for the Suckers. And there is absolutely no 
plan whatsoever regarding how to increase those numbers.
    This is not a case of man vs. fish. Our agencies acted in 
good faith, used good judgment, and did the right things for 
both man and fish. We should not be the poster children for the 
saying, ``no good deed goes unpunished.''
    Members of the Committee, I thank you for this opportunity 
to testify, and I will be happy to answer any questions you may 
have.
    [The prepared statement of Ms. Aldstadt follows:]

            Statement of Stacey Aldstadt, General Manager, 
           City of San Bernardino Municipal Water Department

    Chairman McClintock and Members of the Committee, thank you for 
this opportunity to testify before you today. My name is Stacey 
Aldstadt, and I am the General Manager of the City of San Bernardino 
Municipal Water Department. Your oversight of the Fish and Wildlife 
Service's Final Rule on the Santa Ana Sucker's Critical Habitat is 
critically important to my Department. In short, the Service has 
overreached in issuing their December 2010 Final Rule and the Final 
Rule must be rescinded.
    My Department provides retail water service to over 150,000 
customers in the City of San Bernardino, and wastewater service to over 
200,000 customers. We own and operate a secondary wastewater facility 
located in San Bernardino. Secondary wastewater is treated and then 
piped down to our tertiary wastewater treatment facility, known as the 
Rapid Infiltration and Extraction or ``RIX'' facility, which discharges 
highly treated effluent into the otherwise dry riverbed known as the 
Santa Ana River. Since we began discharging into the Santa Ana River in 
1996, portions of the population of the Santa Ana Sucker have moved 
into and inhabited the river reach downstream of the RIX facility.
    My Department has been involved in the Santa Ana Sucker (SAS) 
Conservation Team since the group formed in 1998. That multi-agency 
organization includes federal, state and local partners with the common 
goal of engaging each agency and the private sector in a river-wide 
approach to the conservation of the Santa Ana Sucker. Over the years, 
the SAS Conservation Team has spent over a million dollars 
collectively, and my agency alone has spent over $100,000 toward the 
team's efforts. I have participated in the development of the SAS 
Conservation Program and, in fact, served as chairperson for the 
Conservation Team in the early years of its implementation.
    The SAS Conservation Program is a regional program that encompasses 
the Santa Ana River and the lower reaches of its tributaries extending 
from Tippecanoe Avenue in San Bernardino County downstream to Chapman 
Avenue in Orange County. It is intended to conserve the Santa Ana 
Sucker and protect its habitat through: (1) implementation of a 
systematic approach to conducting routine operations and facilities 
maintenance; (2) education and outreach; (3) conducting annual surveys 
to monitor the status of the Sucker and conducting a quantitative 
assessment of habitat conditions within the program area; (4) 
conducting surveys for Suckers prior to undertaking routine operations 
and maintenance; (5) funding research actions to increase the 
understanding of Sucker biology; and (6) developing and implementing 
habitat restoration activities that benefit the Santa Ana Sucker.
    The SAS Conservation Program has generated significant research on 
the Santa Ana sucker, including the completion of reproductive 
monitoring surveys, the development of population estimates, increased 
project management, pit tagging, invasive species removal, and habitat 
surveying and mapping. The Conservation Team's efforts are ongoing. 
Among other things, it is responsible for the continuing restoration of 
Sunnyslope Creek in Riverside County. It is interesting to note that, 
although invited to attend, the Center for Biological Diversity has 
never attended any of the Conservation Team meetings, nor has it 
contributed either funding or staff time to our efforts.
    During the same timeframe that the above described efforts were 
taking place in California, the Fish and Wildlife Service was moving 
forward with a variety of federal actions related to the Sucker. In 
2005, the USFWS established an area of Critical Habitat for the fish, a 
process in which my agency and many others in the Santa Ana Sucker Task 
Force participated and remember well. At the time, the Service proposed 
that most of the Santa Ana River be included in the designation. 
Ultimately, the Service decided not to designate the dry upper Santa 
Ana River areas as critical habitat, finding that these areas were not, 
and I quote, ``essential to the conservation of the species'' and that 
the enormous costs to the Inland Empire's economy far outweighed any 
benefits to the species.
    Additionally, the Service determined that those segments of the 
Santa Ana River that had been included in the Santa Ana Sucker 
Conservation Team's efforts were being managed for the benefit of the 
fish and, therefore, excluded those segments from the 2005 Critical 
Habitat designation.
    Our water agencies have been conserving the Santa Ana Sucker 
successfully since 1998, and will continue to do so. Our efforts have 
included fish surveys, and habitat restoration pilot projects, and we 
have submitted work plans to build fish spawning grounds in conjunction 
with other conservation efforts. In addition, we have clearly and 
repeatedly expressed to the Service our willingness to cooperatively 
design and protect habitat for the Santa Ana Sucker because we care 
about the health of the fish.
    After the 2005 process concluded, everyone in the region considered 
the issue to be well-settled. My agency and many others undertook long-
term planning for construction of infrastructure and water supply 
projects which are critical to our region. However, in December 2009, 
the Service announced that they would revise the Critical Habitat. This 
was done without giving any scientific or economic rationale for doing 
so. Certainly, nothing in the biological data showed the species to be 
in decline, and the Service has not produced any such data. A legal 
settlement between the Service and the Center for Biological Diversity 
directed the Service to undertake a review of the Sucker's habitat, but 
it did not require a habitat expansion. Moreover, the lawsuit 
settlement did not override existing law.
    My Department has acted in good faith, voluntarily and without 
prompting, to study, monitor and protect the Santa Ana Sucker. We 
recognize that the fish is in our area, and we wanted to do the right 
thing under the law and for our environment. My colleagues and I 
contributed substantial time, money and other resources in 
collaborative efforts with federal and state agencies. In doing so, we 
developed expertise about the fish and its needs. I believe that our 
knowledge about the Santa Ana Sucker is second to none.
    When the time came for the Service to take our views into account, 
our efforts and expertise were ignored. The Santa Ana Sucker Task Force 
organized in early 2010 in response to the Service's announcement that 
it would re-visit the Critical Habitat for the Santa Ana Sucker. We 
were alarmed at the announcement because of the lack of justification 
for change by the Service. Our group participated in the administrative 
process at every available opportunity. We hired an experienced 
biologist who specializes in the Santa Ana Sucker to provide biological 
data. Furthermore, we commissioned an economic analysis which provides 
detailed information on the devastating economic losses that we will 
incur because of the Final Rule.
    With the Service's announcement of the Final Critical Habitat 
Designation for the Santa Ana Sucker in December of 2010, our worst 
fears were realized because the decision totally disregards the 
scientific and economic realities which should have been central to the 
agency's decision, based on the requirements of the Endangered Species 
Act. In short, the Service did not follow its own rules or Federal law.
    Because the Santa Ana Sucker inhabits areas potentially affected by 
my Department's operations, we will be heavily impacted by the Final 
Rule. For example, we have a petition pending with the California Water 
Board seeking to reduce the volume of current discharge from the RIX 
facility, because we want to begin a recycled water project from our 
plant in San Bernardino. The Service and the Center for Biological 
Diversity have each filed separate protests to our change of use 
petition based on alleged impacts of the water recycling project on the 
Santa Ana Sucker.
    Recycled water is the only truly reliable future source of water 
for irrigation and groundwater recharge in our area. Historically, when 
our groundwater basin has needed artificial recharge (as opposed to 
natural recharge from rain and snowmelt), we have purchased recharge 
water from Northern California, which is conveyed via the State Water 
Project from the San Francisco Bay/Delta. Our planned recycled water 
project is one that is economically viable and provides for a permanent 
solution to our need for artificial recharge water.
    Currently, we do not use any recycled water in our service area. 
After thorough (and costly) treatment, around 32 million gallons per 
day are currently discharged to the Santa Ana River. As envisioned, the 
Clean Water Factory would be located in San Bernardino and employ 
advanced technologies to produce quality water that meets or exceeds 
reuse requirements. The costs of treating and moving this recycled 
water are less than the current price for additional water from the 
north. Initially, 18,000 acre-feet per year of recycled water can be 
used for groundwater recharge and non-potable use, off-setting a 
portion of the demand on the local groundwater basin. Thus, recycled 
water would offset demands on the State Water Project and would be 
reliable and cost-effective.
    In addition to the potential impacts to the recycled water projects 
planned by my agency and others, the new expanded critical habitat 
designation has potentially devastating impacts to planned water 
conservation efforts by San Bernardino Valley Municipal Water District 
and Western Municipal Water District for water stored behind Seven Oaks 
Dam.
    Availability of water supplies is among our region's highest 
priorities, and this project will provide a reliable supply of water 
for generations to come. At least six water agencies, representing 
populations in excess of a million, draw from the aquifer that this 
project will replenish. Cities that would see a direct benefit include: 
San Bernardino, Loma Linda, Highland, Colton and Riverside.
    The Clean Water Factory and the conservation pool for Seven Oaks 
Dam are two projects that are critically important to the future of 
this region. There are others that would be similarly impacted and were 
described in the materials that we provided to the Service before they 
made their final determination. We demonstrated that the Final Rule 
would prevent local water agencies such as mine from using a reliable 
local water supply and, instead, would force us to rely even more 
heavily on an oversubscribed water supply imported by the State Water 
Project from the Delta.
    We also described in detail to the Service the devastating economic 
impacts to Southern California, as the result of losing these supplies, 
including: (1) the loss of access to 125,800 acre-feet per year of 
local water, which will force local water providers to spend at least 
$2.9 billion over the next 25 years for imported water; (2) loss of 
development and an inability to meet projected population and economic 
growth resulting from the inability of cities and counties in San 
Bernardino and Riverside counties to verify that sufficient water will 
be available for proposed development for the succeeding twenty years 
as required by California law (Government Code section 66473.7); (3) 
lost flood control capability; and (4) more than $326 million in 
expenses due to the regulatory uncertainties related to permit 
issuance, mitigation measures, and lost water production, including 
related construction losses.
    My Department is willing to work cooperatively with the Service, 
but the Service does not seem willing to work cooperatively with us. We 
know that decisions concerning the Santa Ana Sucker must be based on 
the best available science and economic analysis, and unfortunately 
that did not occur when the Service promulgated its Final Rule 
designating the expanded critical habitat. Accordingly, the December 
2010 Final Rule should be rescinded as soon as possible, which in turn 
will help foster our ability to create new local water supplies.
                                 ______
                                 
    Mr. McClintock. Thank you, Ms. Aldstadt.
    That concludes the formal testimony, and we will now begin 
the series of 5-minute questions from each of the members. And 
I will begin by recognizing myself for 5 minutes.
    Mr. Lohoefener, you just testified to this Subcommittee 
that the National Fish and Wildlife Service uses, quote, ``the 
best scientific and commercial information available to make 
its decisions.'' That is explicitly not what the Federal court 
ruled when it reviewed your Service's work with respect to the 
Central Valley issues. Judge Wanger called one scientist a 
zealot who didn't let facts get in the way of her goals, called 
another an untrustworthy witness. He accused Fish and Wildlife 
Service scientists of lying to justify a dramatic reduction in 
the amount of water being diverted from the Central Valley.
    How do you square that review of the Fish and Wildlife 
Service's work with your assurances to this Subcommittee?
    Mr. Lohoefener. Chairman McClintock, I am so glad you asked 
this question.
    In your opening remarks, you said you wanted to know where 
the responsibility for those decisions lay. And the buck stops 
right here with me.
    I was the one that signed the 2008 jeopardy and adverse 
modification agreement. I was the one that approved the 
declaration that the Fish and Wildlife Service employed. And I 
have reviewed the declaration of both the Bureau of Reclamation 
and Service and stand behind them 100 percent. I disagree with 
the judge's conclusions.
    However, that is not enough. The Department of the Interior 
takes the judge's allegations very seriously. We have 
implemented the Department's scientific integrity process. At 
this moment, we have independent review going on of the judge's 
allegations and what the consequences may be. I expect those 
results will be made in a very short period of time.
    Mr. McClintock. I want to assure you, Mr. Lohoefener, that 
this Subcommittee also takes the judge's words very, very 
seriously. As I said in my opening statement, this goes far 
beyond an honest disagreement over the facts. When a judge uses 
words like ``arbitrary and capricious,'' accuses the national 
Fish and Wildlife Service scientists of lying for political 
goals, we take that very, very seriously.
    And I can assure you that that goes well beyond 
disagreement. That goes to a question of abuse of power.
    I appreciate your taking responsibility for that. And I can 
assure you that you have not heard the end of that issue from 
this Subcommittee and quite likely from this 112th Congress.
    To Mr. Rossi and Ms. Aldstadt, the Center for Biological 
Diversity has just charged that the 2005 critical habitat 
designation was politicized by political appointees who were 
not scientists under the Bush Administration. Of course, the 
current demonstration also had a nonscientist in that same 
position.
    They changed the critical habitat designation without any 
scientific or economic rationale being used, to use Ms. 
Aldstadt's words. That invites the question of whether this new 
critical habitat designation is political, if it is not 
scientifically justified.
    Has the Fish and Wildlife Service ever explained its 
rationale for settling with the Center for Biological Diversity 
on this issue?
    Ms. Aldstadt. Not to my knowledge, no.
    Mr. McClintock. Mr. Lohoefener?
    Mr. Lohoefener. The----
    Mr. McClintock. Just yes or no, have you offered a public 
justification for settling with the Center for Biological 
Diversity on this issue?
    Mr. Lohoefener. Our justification for doing the 2005 
biological opinion can be found in both the proposed and final 
critical habitat rules.
    Mr. McClintock. Ms. Aldstadt, is it true that there is 
bipartisan opposition to this reversal of course?
    Ms. Aldstadt. Yes, Mr. Chairman.
    Mr. McClintock. Is it true that even the State Water 
Resources Control Board felt that the 2005 habitat was 
justified?
    Ms. Aldstadt. That is my understanding, Mr. Chairman, yes.
    Mr. McClintock. Was there any independent peer review of 
this Administration's decision?
    Ms. Aldstadt. Not that I am aware of, Mr. Chairman.
    Mr. McClintock. Is there a recovery plan?
    Ms. Aldstadt. No.
    Mr. McClintock. Do you believe the 2005 critical habitat 
designation was scientifically justified?
    Ms. Aldstadt. No, I do not, Mr. Chairman.
    Mr. McClintock. The 2005?
    Ms. Aldstadt. I am sorry, yes. The 2005 critical habitat 
designation, in my opinion, was valid and was supported by 
scientific information.
    Mr. McClintock. Now, both you and Mr. Rossi made statements 
that the Fish and Wildlife Service did not use the best 
available science in its latest critical habitat decision, yet 
the Agency and the Center for Biological Diversity think they 
did.
    You mentioned that you hired an independent biologist. What 
did that biologist find?
    Ms. Aldstadt. Our biologist, the biologist that we hired, 
who, by the way, does have a specialty in fish, determined that 
the 2005 critical habitat designation was supported by the 
evidence, but that the, at that time, 2010 proposed and now 
final critical habitat designation were not.
    Mr. McClintock. That concludes my 5 minutes.
    Congressman Lewis?
    Mr. Lewis. Thank you, Mr. Chairman.
    I wanted to focus for a moment upon the potential flooding 
impact of the non-function of the Seven Oaks Dam upon the 
community of Redlands. Since we are pleased to have the Mayor 
of Redlands with us today, perhaps he can help us understand 
what the City of Redlands is thinking about relative to the 
Seven Oaks Dam not being able to do its job.
    The City of Redlands is in a floodplain. The potential for 
loss of life and property is very, very real.
    Has this been an item of discussion within the City of 
Redlands? And if so, would you share with the Committee?
    Mr. Aguilar. Thank you, Mr. Lewis.
    The City of Redlands has had discussions about this topic 
from a policy perspective. We have been a part of regional 
efforts that have included Ms. Aldstadt's organization, and we 
look forward to continued partnerships regionally to try to 
address this issue.
    From our perspective, we are absolutely focused on 
maintaining our reliability of our water delivery system. And 
we feel that these current rules will--we will continue to make 
that a priority for our residents.
    Mr. Lewis. You may be interested to know that in light of 
last year's hearing with the Appropriations Subcommittee 
dealing with the Interior, present that day were a combination 
of David Hayes from the Department and Secretary Salazar 
himself. I had the pleasure of asking the Secretary 
specifically about the Santa Ana Sucker and the focus of the 
Subcommittee discussion was we do not want to have a Delta 
Smelt challenge or problem as it relates to the Santa Ana 
Sucker along the Santa Ana River Basin.
    The Secretary suggested to us that he was somewhat 
hamstrung at that moment, for he had never heard of the Santa 
Ana Sucker before. Well, it is apparent from testimony today 
that we had at least 10 years of discussion back and forth 
between the local leaders in the water arena and the potential 
impact on the Santa Ana Sucker.
    I hope that that discussion with the Secretary has raised 
this to a level now that will allow us to make sense out of the 
pathway ahead of us. We do not need to put the Inland Empire in 
the same condition that we have found in the Central Valley. 
And if we work together, we can solve those problems.
    Today, Mr. Chairman, I am most concerned about the division 
or diversity that appears to exist between anticipated or 
proposed economic impacts of the Santa Ana Sucker expressed by 
local experts who seem to know a lot more about the economy 
than perhaps our Department of the Interior.
    I would like to add Dr. John Husing, if he would, summarize 
for us his findings, since he probably the most extended 
expertise in the entire room regarding this subject.
    Dr. Husing?
    Dr. Husing. Thank you, Congressman.
    First of all, to put some of this in context, the Inland 
Empire, which is affected, most of it, by what we are 
discussing here has 4.2 million people. That makes it 400,000 
people larger than Oregon and larger than 24 of the 50 States. 
This is not a minor backwater piece of the United States that 
the decision potentially impacts. And as you heard repeatedly, 
the unemployment rate in this area is 14.1.
    To put that in context, in the United States, there are 49 
areas with 1 million or more people. Of those, we were ranked 
second-highest to Las Vegas in August in unemployment rate. So 
these issues are quite serious here.
    If you look at what is going on within this region, you end 
up with the following situation: Southern California is 
growing; 70 percent of its growth is simply births over deaths. 
This is not migration. This is not immigration. As I laughingly 
say in my speeches, we haven't stopped sex just yet.
    The Inland Empire is really the only part of Southern 
California that it is capable of accommodating a huge part of 
the Valley, because this is where most of the available spaces 
is for expansion. As a consequence, the Southern California 
Association puts our potential growth between now and 2035 at 
1.3 million people, 472,000 households, and 745,600 jobs--a 
massive increase, if we can accommodate it.
    My instinct, as I have followed this discussion now for 
several years, is there is a three-prong strategy coming at us, 
essentially aimed at slowing growth in Southern California that 
may or may not have anything to do with the fish.
    First of all, there is a California law that you have heard 
cited repeatedly to require 20 years of water certified by the 
agency before you can build a major housing project, industrial 
projects, retail projects. That sort of starts the issue.
    Then you cut off the flow of water to Southern California 
to a large extent with the Delta Smelt, which reduces that 
access if you need to get it from up North. To put in context 
exactly what that means, the municipal water district in this 
area actually stopped a lot of projects because of the unknowns 
that that situation created. This is not a theory. That has 
already happened once.
    The Santa Ana Sucker now comes along to finish the job by 
cutting off our access to our own water, which represents 
roughly 30 percent of all water currently used in this area.
    When you look at what the local agency said, they indicated 
125,800 acre-feet of water potentially could be lost. I will 
say that the economists working for the Service did not accept 
that number. They took a lower number. That was their judgment 
vs. the judgments of the local water people.
    At $594 an acre-foot, which is the current price that is 
going for, and looking at how much water prices have been going 
up beyond inflation, that is a $2.87 million hit over a 25-year 
timeframe, which is most of the planning horizons we use in 
Southern California. If you discount that at 3 percent, that is 
a $1.873 billion current value. What that means is if you put 
that current amount of money in the bank right now at 3 
percent, withdrew it each year and paid for the cost of what 
you would be having to buy, it would come out to 1.87.
    The Service numbers that you heard cited a minute ago very 
simply said one thing. What they said was, at a 7 percent 
discount rate--you tell me where you can get 7 percent right 
now. That is how you get much lower numbers.
    That is assuming you can get replacement water. As you have 
heard repeatedly here, and I will finish with this, with that 
20-year in place, one of the things I said to their economist 
is you absolutely have to study was the effect if we couldn't 
get the water.
    Now again, to put that in context, we had last year in 
California a snowpack that was 165 percent of normal. Even at 
that, the water resources agency only allowed 80 percent of the 
existing contracts, not asking for more, to be filled. The 
water won't be there. It is very simple.
    If that is the case, what I said to their economist, you 
had better study the effect on lost construction, lost jobs, 
lost economic activity, if we cannot replace the water that you 
are going to take. They treated that at zero.
    Mr. McClintock. Thank you.
    Mr. Calvert?
    Mr. Calvert. I would like to expand, Mr. Chairman, and on 
what Mr. Husing was talking about. I had the privilege of 
chairing the Water and Power Subcommittee some years ago and 
worked on the Delta, which as you know has been worked on for a 
long time. And I am sure we will be working on it for a long 
time in the future.
    And I think we can all agree up here, I think we can all 
agree in the audience, additional water deliveries from the 
Delta is not certain. There is talk about a bond to build 
additional projects, which I think need to be built, expand 
the--build the site's reservoir expansion, storage, Shasta, the 
Upper San Joaquin, more efficient utilization of the pumps, 
diversion around the Delta, et cetera. But again, that is 
prospective, and it is hard to know that that will occur.
    We also know that the Colorado River, which I was involved 
in the negotiation on the quantification settlement agreement, 
Arizona and the lower basin States, the upper basin States, 
doggone it, want their water back under the adjudications that 
were taking place a number of years ago. That means California 
will have a diminished water supply of a million acre feet per 
year from the Colorado River.
    So a number years ago, these local agencies, wanting to do 
the right thing, went about conserving water, using water 
reclamation, doing the projects that were necessary to make 
sure that we had a stable water supply. And when I hear from 
Fish and Wildlife as of to date no restriction, you know, I 
think people look at the Delta and they look at the Delta Smelt 
and say, there is no certainty. That is what they look at, no 
certainty.
    So people who may want to come to the Inland Empire to 
expand or build a business may choose not to.
    And I want to ask a question of Mr. Stockton.
    Do you anticipate, because of this issue--and by the way, 
this is on page 3 of the Wall Street Journal this last week--
when people read about the lack of certainty of a water supply 
in this part of Southern California, do you think that that 
would have a negative impact on trying to bring job development 
to the Inland Empire?
    Mr. Stockton. Well, absolutely. If you think, for years we 
talked about trying to transition the Inland Empire from a 
bedroom community supplying jobs to the coastal communities, 
with the idea that we want to bring businesses with the 
restriction on water supply assessments and the inability to 
bring forward any new projects of any significance, if you were 
a business from out of state or out of the country looking at 
an area where you would want to come to, you would want to make 
sure that you have a reliable water supply. Water is so 
precious.
    So it would absolutely have an impact.
    Mr. Calvert. Add to that, Mr. Husing?
    Dr. Husing. There is no question that California already 
has a tough time convincing companies to consider us. You add 
this on top of it, and you have eliminated a whole group of 
companies from even considering us.
    And 20 percent of the people who live in this area 
currently have to commute; 80 percent work locally, but 20 
percent don't. And we are trying to lower that, frankly, for 
the environment, to reduce our jobs-housing balance issue. This 
interferes with that.
    Mr. Calvert. Mr. Chairman, this project that Mr. Lewis and 
myself and others over the years have protected and tried to 
get completed, the all-river plan, and I want to ask a question 
from the Colonel, is primarily a flood control panel project, 
as you know, Colonel.
    We had severe floods in the 1930s and certainly 1969. And 
so we went about, the Federal taxpayers, over a billion-dollar 
investment in a significant infrastructure project to protect 
the people of San Bernardino, Riverside County, and Orange 
County from devastating floods.
    And as part of a benefit of that, we want to have water 
storage behind the Seven Oaks Dam. And you will be getting an 
application--I am sure you are ready aware of--to expand 
additional water behind the Prado Dam.
    Now you say to date, there is no effect. Do you believe 
there could be an effect on how you operate this billion-dollar 
enterprise that the taxpayers pay for?
    Colonel Wehr. Well, Congressman Calvert, thank you for the 
question. That is certainly under study at the moment. There 
certainly could be an effect. No doubt about that. The review 
of that will take some time. We have an ongoing water quality 
and conservation study underway for Seven Oaks, in fact, that 
will look at that in terms of the impact of the designation.
    Mr. Calvert. Thank you.
    Mr. McClintock. We'll go to the second round of questions. 
And I will begin with Mr. Rossi.
    The Center for Biological Diversity's testimony, included 
Fish and Wildlife Service e-mails obtained through the Freedom 
of Information Act. Clearly, the Agency provided them with 
these e-mails.
    It is my understanding that a number of water utilities 
have requested e-mails relevant to the Agency's critical 
habitat decision-making quite a few months ago. Yet there has 
been no substantive response from the Agency.
    Is that correct?
    Mr. Rossi. That is correct.
    Mr. McClintock. Well, Mr. Lohoefener, do you understand how 
this lack of transparency gives the impression that your Agency 
is taking sides and only willing to provide information to one 
side?
    Mr. Lohoefener. The FOIA requests that have been referred 
to have been replied to in part. It is true we have not 
completed that process. Many of the requests are still under 
review in our solicitor's office.
    Mr. McClintock. Well, when can we expect that information 
to be provided?
    Mr. Lohoefener. We can get back to you on that, because, 
like I said, it requires the coordination of our solicitor's 
office, which is not under my purview. We will be happy to give 
you some information on that.
    Mr. McClintock. Consider this a request from the 
Subcommittee that you provide this Subcommittee with that 
information as well, and that you do so expeditiously.
    Ms. Aldstadt and Mr. Rossi, the Fish and Wildlife Service 
testimony is, essentially, you don't need to worry about the 
critical habitat decision. All is well, since critical habitat 
is not going to lead to water supply limitations.
    What is your response to that?
    Mr. Rossi. Well, it is very difficult for us to understand 
what the change in operation of the dam might be. As we said 20 
years ago, saw that the world was changing in terms of 
uncertainty in water supplies and started working on this 
project, spending millions and millions of dollar. So to 
include dry riverbed for the purpose of moving gravel, we can't 
yet understand the kind of massive flows that would need to 
come out of the dam to move that gravel down.
    And as an example, one last piece of that answer, is we 
have developed very complicated water budget rate programs to 
tell each of our customers throughout the region that every 
gallon is precious to us, we must conserve and do our part, in 
addition to other water supply projects. And the potential loss 
of billions of gallons of water each year is just something we 
can't understand.
    Ms. Aldstadt. Also, with respect to the proposed recycled 
water project that my department is spearheading, the Center 
for Biological Diversity and the United States Fish and 
Wildlife Service have both filed protests against a change of 
use petition that we submitted to the State Water Resources 
Control Board, which was one of the necessary prerequisites to 
our being able to move forward with environmental planning. So 
they have in fact already protested our ability to use recycled 
water in the way that we want to use it.
    Mr. McClintock. Well, Mr. Stockton testified that the 
Administration's critical habitat designation is pulling the 
rug out from underneath local officials who put a lot of time 
and money into a multi-species conservation plan that will help 
the Sucker fish. Is it true even that State Water Resources 
Control Board approved a local water project in light of all 
this and previous critical habitat designations?
    Could you or perhaps Mr. Rossi or Mr. Stockton elaborate?
    Mr. Rossi. Yes, Mr. Chairman, in 1991, we started a process 
with the State Water Resources Control Board to get a permit 
for that water as we saw that project going on, the Seven Oaks 
Dam. In 2007, we had hearings for a week in Sacramento in front 
of the board and they made their final ruling that included the 
lack of that impact in 2009.
    Mr. McClintock. Well, with this added critical habitat help 
the Sucker fish?
    Mr. Rossi. I do not understand how it would.
    Mr. McClintock. Ms. Aldstadt?
    Ms. Aldstadt. Based upon the scientific information that I 
have reviewed through my experience on the Santa Ana Sucker 
conservation team, the science right now is in such flux that 
it is difficult to understand how all of the critical habitat 
designation, the new one, will help significantly over the old 
one.
    Mr. McClintock. Mayor Aguilar, you represent the people who 
are directly affected by these decisions. Mr. Lohoefener has 
just said that he takes responsibility for these decisions.
    What would your constituents say to him as he goes back to 
Sacramento, where there are no water shortages?
    Mr. Aguilar. I am sure the 68,000 residents of my city that 
he takes responsibility for that, so----
    Mr. McClintock. What would they want to say to him, if they 
had the opportunity? You speak for them; you are their Mayor. 
What do you want to tell this man right now?
    Mr. Aguilar. I think you need to base it on science. And I 
think we need to--I think my residents would be shocked at the 
inclusion of dry riverbed, as Mr. Rossi mentioned.
    The City of Redlands is adjacent to dry riverbed for more 
than 10 months of the year, and I think my residents would be 
shocked that that is designated as critical habitat.
    I think that our job as local officials is to build 
attractive, thriving, and sustaining communities. And I think 
that is what our residents expect. They expect certainty.
    And this rule does not create the certainty that my 
residents would expect.
    Mr. McClintock. Thank you.
    Mr. Lewis?
    Mr. Lewis. Thank you, Mr. Chairman.
    Ms. Anderson, the center's website clearly states that the 
long-term goal of--the removal of Seven Oaks Dam is one of 
their goals. To say the least, I am distressed by that 
communication. How does the center justify that when the long-
term dangers of flooding in the region are so real?
    And further, Ms. Anderson, when I see something like that, 
it makes me wonder if it is not just about fish. It may be more 
than just about fish and more about a fundamental objection to 
growth.
    How do you respond to those two lines of thinking?
    Ms. Anderson. Well, the organization is dedicated to the 
preservation of rare and endangered species and their habitats. 
And as has been pointed out on this panel, there has been a lot 
of development within the Inland Empire, and, therefore, many 
of the species that rely on the Santa Ana River, not just the 
Sucker, but things like Least Bell's Vireo, Southwestern Willow 
Flycatcher, San Bernardino kangaroo rat, all of these animals 
are directly affected by development pressures.
    I guess part of our position is, you know, why are we 
developing in a floodplain anyway? If there are threats of 
flooding, why would you put people in harm's way? It just 
doesn't make any sense.
    And why not keep that area for species that have evolved 
over ages to deal with that sort of flooding threat?
    Mr. Lewis. I guess that perhaps Mayor Aguilar constituents 
and my constituents would suggest that the threat of flooding, 
if the Seven Oaks Dam were eliminated, could very well impact a 
very important species they are concerned about. That is human 
life. It is one of the species I think that maybe you are 
concerned about protecting.
    Ms. Anderson. Absolutely.
    You know, the situation now is that the floodplain has been 
built-in and Seven Oaks Dam is there. What we are now left 
trying to deal with is how to save the species in what remains 
of the floodplain.
    Mr. McClintock. Mr. Calvert?
    Mr. Calvert. I would to carry on, on this subject.
    On the Seven Oaks Dam, Colonel, if that didn't exist this 
last season, what would the impact have been on the Prado Dam?
    Colonel Wehr. Well, certainly that dam protects up to $540 
million worth of property and livelihoods of those downstream.
    Mr. Calvert. Well, I guess what I mean by that is I was 
told by others in the Corps that if the Seven Oaks Dam did not 
exist in this last flood season, it very well could have--water 
could have gone over the spillway.
    Is that correct?
    Colonel Wehr. I would have to provide a more detailed 
answer for the record, but I suspect that is possible.
    Mr. Calvert. If water did go over the spillway at the Santa 
Ana River, how much of Orange County has been built on a 
floodplain over the years? Fountain Valley, Huntington Beach, 
how much of that area was flooded in the 1939 flood?
    Colonel Wehr. I would have to check the history, to be 
honest. But I know that there is $15 billion worth of 
protection provided below Prado Dam.
    Mr. Calvert. As I remember the history of that, what is now 
Fountain Valley was underwater. Huntington Beach was 
underwater. Good parts of along the Santa Ana River and the 
Santa Ana was underwater.
    And for that reason, they built the dam in 1939. Isn't that 
correct?
    Colonel Wehr. Correct.
    Mr. Calvert. And for the same reason, with the floods of 
1968 and 1969, we decided to expand that flood protection, 
because of development, primarily not in Riverside, San 
Bernardino Counties, but in Orange County, to develop the Prado 
Dam to where we are trying to get it to, and the Seven Oaks 
Dam. Isn't that correct?
    Colonel Wehr. That is correct. The feature that is being 
elevated for the Prado Dam is----
    Mr. Calvert. You know, I want to make a point about Judge 
Wanger. I am glad the Chairman--his reputation is unblemished. 
And I want to make that point very clear. He has had a long and 
distinguished career. He is highly respected by everyone, as I 
know. And he is retiring and we wish him well.
    I don't want any question of the fact that he thought 
through these decisions very carefully. I mean there was 
frustration on both sides of the issue, as the judge went 
through this whole Delta issue very carefully. And I think he 
acted in a manner that gives credit to fellow judges, who he 
is.
    And I certainly want to make that point, Mr. Chairman, 
before this hearing is over. Thank you.
    Mr. McClintock. An important point to make. And I might add 
that his language left no question what he thought of the abuse 
of power within the Fish and Wildlife Service and the abuse of 
science by using junk science in a manner that concluded 
exactly the opposite of what the real science was pointing to.
    And with that, we will begin the third and final round of 
questioning. And I would like to begin with Ms. Aldstadt.
    You testified about the efforts that the Santa Ana Sucker 
conservation team has pursued on the ground. What efforts are 
underway for captive breeding of these fish? Why doesn't 
somebody just build a fish hatchery if we need more of these 
Sucker fish?
    Ms. Aldstadt. Well, I am not a fish scientist, but I am 
aware that there are currently fish raceways that are located 
in the Riverside conservation nonprofit agency, and we also 
offered to--we, the water agencies involved in the Santa Ana 
Sucker Task Force--we have all--in fact, San Bernardino Valley 
Municipal Water District took the lead in developing a proposal 
to go to U.S. Fish and Wildlife and California Fish and Game, 
proposing to expand the breeding raceways for the Santa Ana 
Sucker.
    To my knowledge, that proposal has not gone anywhere yet. 
However, the water agencies remain committed to sponsoring that 
proposal still.
    Mr. McClintock. Let me ask--this all started on behalf of 
the City of San Bernardino, or for Mr. Rossi on behalf of 
Western Municipal Water, or Mayor Aguilar on behalf of the City 
of Redlands, where are you going to get the water?
    My friend Mr. Calvert is absolutely right. I represent the 
headwaters of the Sacramento Delta. And I can assure you 
without additional storage, additional conveyance is a 
nonstarter. Where are you going to get the water, if you don't 
use the local sources that you have available?
    Mr. Rossi. We know it is a very precious resource and very 
limited. We are going to have shortages. We have had shortages 
over the last 3 years in Southern California, and without--one 
of the things we recognize is stormwater, allowing it to go 
into the ocean is just wrong. And we have worked on this for 20 
years and spent millions of dollars, so it just should not 
happen.
    Mr. Aguilar. We are going to have to look at additional 
strategies, recycling and--and those are the issues that I 
think are important to us as local communities.
    Mr. McClintock. What is that going to do to your water 
costs?
    Mr. Aguilar. Oh, and it is going to increase them, without 
a doubt. We are going to have to be less reliant on the State 
water. And that is one of the reasons why we are here, because 
we need to develop more strategies to capture those local 
sources and to percolate those in our existing system and to 
deliver those to residents. And I think those strategies are 
limited by these decisions.
    Mr. McClintock. And, Mr. Stockton, you pointed out that we 
human beings do lots of things as hobbies. We build stuff, we 
grow stuff, we do stuff. But what we actually do for a living 
is we make more living human beings. We have been doing it for 
a long time. We are getting pretty good at it as a species. And 
the population is going to grow regardless of the impediments 
that are imposed by public officials that are supposed to be 
watching out for the people's interests.
    What would those skyrocketing prices for water do to the 
economy of the region?
    Mr. Stockton. Well, I think as Dr. Husing testified, over a 
25-year period, something close to $3 billion in rates. And if 
you extrapolate that over time, that is a huge costs to the 
ratepayers.
    Additionally, you talked about delivering homes for this 
growing population. What is a bit discouraging to me is my 
business is, I am a consulting civil engineering company. And 
finally, after 3 years, we are actually looking at projects, 
industrial projects, commercial projects, major residential 
projects, starting to come back online.
    Virtually all the projects I have now dusted off after 3 
years are subject to a WSA. And 80 percent of them are within 
Western Municipal Water District; probably not going to be able 
to do them.
    Mr. McClintock. OK, let me get to one final question.
    As I said my opening statement, it is no coincidence that 
four of the 10 metropolitan areas throughout the country with 
the worst unemployment rates are in the Central Valley. Mr. 
Lohoefener's decisions, which he has taken responsibility for, 
blissfully unconcerned about the suffering going on in the 
Central Valley, appears to now be attempting to impose the same 
decisions here in this region.
    What would the small, struggling businesses that you 
represent want to tell him if those shopkeepers were here 
today.
    Mr. Stockton. Please stop. You're killing us.
    Mr. McClintock. Mr. Lewis?
    Mr. Lewis. Thank you, Mr. Chairman.
    Mr. Lohoefener, to be gentle with you as a witness, I am 
interested in knowing, or having you tell us for the record, 
when a critical habitat is designated, the Service is required 
to submit potential economic impacts to that designation.
    Have you ever received an economic statement and found it 
to be lacking, maybe send it back for further review?
    Mr. Lohoefener. Yes.
    Mr. Lewis. Have you done that in this case, with the Santa 
Ana Sucker?
    Mr. Lohoefener. I came into this region in 2008. I signed 
both the proposed rule and the final critical habitat rule. I 
cannot tell you whether or not the interchange between the 
independent economist we had and the Service as a whole 
resulted in changes. I did not personally request any changes.
    Mr. Lewis. It strikes me that when you are faced with the 
kind of economic impact being on the surface described here 
only relatively lightly today, that you as a public servant of 
all people would worry about real impact in terms of jobs, in 
terms of the communities' economic ability to survive. Are 
those considerations that would be a part of your 
responsibility? And have you asked for additional information 
that would help you better understand those impacts?
    Mr. Lohoefener. In terms of critical habitat, Mr. 
Congressman, the Service has two responsibilities. One, we have 
the responsibility of implementing the Endangered Species Act. 
Critical habitat is an area where the economic assessment--the 
economic cost is taken into cost. That is part of the decision 
process. The decision process on critical habitat is vetted all 
the way up to the Assistant Secretary of the Department of the 
Interior.
    Mr. Lewis. The early information I received indicated that 
your first guesstimates of economic impact kind of pointed the 
finger at something like $700 million or $800 million. That has 
been adjusted somewhat upward by the Department. But between 
now and then, the huge gap between that and the information we 
get from local experts causes at least this Member to not just 
scratch his head but say, for God's sake, why doesn't the 
Department, in a sensible way, go back and ask for additional 
information and find experts who don't just rely upon giving 
them the answers they want to hear as they go about making a 
designation?
    Mr. Lohoefener. Is that a question, sir?
    Mr. Lewis. Sure it was.
    Mr. Lohoefener. The question I think is--let me put it this 
way. And again, I am mindful of the litigation we are under 
here.
    The proposed economic analysis and the final economic 
analysis--and I am no--by no stretch of imagination am I any 
expert in the realm of economics whatsoever, unlike Dr. Husing.
    However, if you look in our final economic analysis, you 
will find the comments we received, including the analysis by 
Mr. Husing, responded to in the economic analysis.
    Mr. Lewis. Thank you, Mr. Chairman.
    Mr. McClintock. Mr. Calvert?
    Mr. Calvert. Thank you, Mr. Chairman.
    When you mentioned, Mr. Lohoefener, that you went up to the 
Assistant Secretary of the Interior, do you mean David Hayes?
    Mr. Lohoefener. No, the Assistant Secretary at that time 
was Tom Strickland.
    Mr. Calvert. Because I know that Mr. Lewis and myself had a 
hearing with Mr. Hayes not too long ago, and he never heard of 
the Santa Ana Sucker fish. He has heard of it now, I suspect.
    Ms. Anderson, what is your position on desalinization from 
seawater? What is the position of the Center for Biological 
Diversity?
    Ms. Anderson. You know, I don't know what the position is.
    Mr. Calvert. Well, isn't the center opposed to the 
desalinization project in Santa Cruz? Didn't they come out 
against that?
    Ms. Anderson. I don't know. I will have to get back to you 
on that.
    Mr. Calvert. Is there any water project, that you are aware 
of, that you have been in favor of?
    Why don't you get back to the Committee in writing and 
submit a list. I am sure it won't take very long.
    [Laughter.]
    Ms. Anderson. Thank you. I will do that.
    Mr. Calvert. I would say she is a straight talker.
    Mr. Husing, we have known each other for a long time. And 
as you know, I don't care what kind of development or what kind 
of--without water, you can't do anything. Without energy, you 
can't. Those are the two primary necessities for human life. 
Obviously, clean air and all the rest. But energy and water are 
just kind of basic commodities.
    In the Inland Empire we suffer--my friend mentions the 
Central Valley. But, second only to the Central Valley, this 
area has suffered.
    What damage has this done to this region, just the problem 
of this being out there?
    Dr. Husing. It adds to the general view that this is an 
area that, if I am a firm, I am going to very seriously 
consider avoiding.
    If I might, I would like to add a couple of other quick 
things on some other points that were brought up, if you don't 
mind?
    Mr. Calvert. Sure. I have 2 minutes.
    Dr. Husing. One of which is, Representative Lewis is old 
like I am, and I remember being evacuated in a tractor blade in 
1969 with 20-foot waves going down that canyon, because there 
was no Seven Oaks Dam.
    The second point, buried in the appendix of this work that 
was done by the economists for the center was a second look at 
the data. And their upper number of their own analysis exceeded 
$1 billion, not including anything for the billions and 
billions and billions of dollars that would be lost if the 
combination of the Sucker, the 20-year requirement for water, 
and the Delta Smelt are allowed to come into existence.
    I consider, as an economist who has studied this area for 
47 years, this to be the single most important issue in this 
area's long-term economic future, because it could shut us 
down.
    Mr. Calvert. Thank you, Mr. Chairman.
    Mr. McClintock. Thank you, Mr. Calvert
    That concludes the questioning and the Chair now yields to 
the gentleman from California, Mr. Lewis, for a few closing 
thoughts.
    Mr. Lewis. Thank you, Mr. Chairman.
    I would like to take just a moment to express the 
Committee's deep appreciation to the City of Highland for their 
extraordinary effort in helping put this meeting together. I 
especially want to mention Alayna Rodriguez, Betty Hughes, 
Dennis Barton, David Dinali, Brendon Littleton, and Jack Avon. 
All of you have gone way above and beyond the call of duty in 
helping this be very successful and, I think for our region, a 
very important hearing today.
    Thank you, Mr. Chairman.
    Mr. McClintock. Thank you, Mr. Lewis.
    And, of course, I would add my thanks for the hospitality 
to the City of Highland today and to each of our witnesses for 
their time and their valuable testimony.
    Members of the Subcommittee may have additional questions 
for witnesses, and we would ask that you respond to those in 
writing. The hearing record will be kept open for 10 business 
days to receive those responses.
    Mr. McClintock. And if there is no further business, 
without objection, the Subcommittee stands adjourned.
    [Whereupon, at 11:37 a.m., the Subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
